<html>
<title> - NOMINATIONS OF JOHN J. GOGLIA FOR REAPPOINTMENT, AND CAROL J. CARMODY FOR APPOINTMENT AS MEMBERS OF THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 106-1089]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1089

 NOMINATIONS OF JOHN J. GOGLIA FOR REAPPOINTMENT, AND CAROL J. CARMODY 
 FOR APPOINTMENT AS MEMBERS OF THE NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



78-127              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2000....................................     1
Statement of Senator Breaux......................................     3
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     2
Statement of Senator Hutchison...................................     1

                               Witnesses

Goglia, Hon. John J., Member, National Transportation Safety 
  Board..........................................................     3
    Prepared statement...........................................     4
    Biographical information.....................................     5
Carmody, Carol J., Member-Designate, National Transportation 
  Safety Board...................................................    15
    Prepared statement...........................................    16
    Biographical information.....................................    17

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    31
Kerry, Hon. John F., U.S. Senator from Massachusetts, prepared 
  statement......................................................    31
Response to written questions submitted by Hon. Ernest F. 
  Hollings to:
    Carol J. Carmody.............................................    32
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Carol J. Carmody.............................................    35
    John J. Goglia...............................................    38

 
 NOMINATIONS OF JOHN J. GOGLIA FOR REAPPOINTMENT, AND CAROL J. CARMODY 
 FOR APPOINTMENT AS MEMBERS OF THE NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                        WEDNESDAY, MARCH 1, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Kay Bailey 
Hutchison presiding.
    Staff members assigned to this hearing: Virginia Pounds, 
Republican professional staff; and Jonathan Oakman, Democratic 
staff assistant.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Good morning. The hearing will come to 
order. The Commerce Committee meets today to review the 
qualifications of two nominees to the National Transportation 
Safety Board.
    Let me say a few words about the NTSB. As a former vice 
chairman of the Board, I certainly appreciate the work this 
agency does. The National Transportation Safety Board is 
certainly not our largest Federal agency, with only 400 full-
time employees, but to the general public it is certainly one 
of the most visible, and it is one of the most important in 
terms of the work you do for the general public's benefit.
    Since its creation, the Board has investigated over 100,000 
accidents. In the last 3 years, the Board has investigated over 
7,000 accidents. It has issued 57 major reports and issued 
1,100 safety recommendations. I believe it is important for 
Congress to authorize the work that NTSB is doing. Therefore, I 
will shortly introduce a reauthorization bill for the National 
Transportation Safety Board.
    There are a number of issues to sort through, such as 
future funding, personnel levels. We must also address the 
Board's need to recruit and keep quality personnel, as well as 
the primacy of jurisdiction over accident investigations. I am 
committed to the Senate acting on an NTSB authorization, and 
would hope that we could get a bill to the President in the 
near future.
    Now let me turn to our two nominees. We have Mr. John 
Goglia, who is being renominated, and you have been on the 
Board since 1995. The new nominee is Ms. Carol Carmody. Ms. 
Carmody was born in Houston, Texas, and is a graduate of SMU. 
You have a long career in aviation issues, working for the FAA, 
the Senate Commerce Committee, and most recently as the United 
States Representative to the Council of the International Civil 
Aviation Organization, based in Canada.
    I look forward to hearing the statements from the witnesses 
and hearing your views on the issues that we would be facing in 
an NTSB reauthorization, and now I would like to turn to our 
Ranking Member, Senator Hollings. Before I do that, I will say 
that Senator McCain specifically asked me to hold this hearing 
so that we could get the process going on your nominations. We 
want the Board to be fully at a full complement and able to 
function. Certainly, as you know, the go teams need to have 
rotating memberships, and we need to make sure that we have our 
members confirmed as soon as possible, and that is why Senator 
McCain asked me to hold this hearing so that we could do this 
in short order.
    So with that, I would like to call on our distinguished 
Ranking Member, Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you, Madam Chairman. I would be 
delighted to cosponsor your reauthorization bill. The National 
Transportation Safety Board is without question very 
professional and has the credibility enjoyed throughout the 
public. That is why I did not want to treat it casually and 
miss this hearing. We have got another one going on at the 
moment. I wanted to welcome Carol Carmody back. She has served 
with us on this committee for years and has done an outstanding 
job. Of course Mr. Goglia is from Massachusetts and, according 
to John Kerry, you know, does a wonderful job. I have not seen 
any individual thing, but I will take Senator Kerry's word for 
it. I am glad to support both of them, and I thank the chairman 
very much. I ask that my full statement be included in the 
record at this time.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Good morning. I am pleased to welcome the nominees of the National 
Transportation Safety Board, Carol Carmody and John Goglia. Ms. 
Carmody, as many of you know, is a former staff member on aviation 
issues for the Senate Commerce Committee as well as the former U.S. 
delegate to ICAO. Mr. Goglia has served on the NTSB since August of 
1995. He is a working Airframe and Powerplant mechanic, a noted expert 
on human factors in the mechanic's workplace, as well as a specialist 
in regulatory issues.
    Today, the NTSB is in a position of doing more than it ever has 
before. All modes of transportation seem to be in the news--whether it 
is a train crash in Baltimore injuring people, the sinking of a 
recreational sailboat off the coast of Charleston killing all aboard, 
or the crash of Alaska Air flight 261 off the California coast which 
killed 88 passengers and crew. In each instance, NTSB is at the scene 
investigating the cause of the tragedy. They are also the ones who, 
after much study, formulate key safety directives for the prevention of 
reoccurrences. As our transportations systems become more congested and 
if the causes of transportation accidents continue to increase in 
complexity, their safety recommendations will become even more 
critical.
    Lately, the NTSB and its staff have been lauded for their expertise 
and devotion while some of the NTSBs techniques and practices have come 
under scrutiny. The Rand Report, commissioned by the NTSB itself, is 
complimentary but expresses concern that the NTSB is stretched to 
capacity. This is certainly something we should heed--the NTSB is 
highly regarded for its integrity and investigative acumen. It would be 
a mistake to allow them to become overburdened by too many extensions 
of their original mission or through understaffing. I look forward to 
listening to the nominees' statements and their potential contributions 
to the NTSB, as well as their thoughts on improving the NTSB.

    Senator Hutchison. Thank you, Senator Hollings, and thanks 
for the offer to work with us and cosponsor the 
reauthorization. We will take you up on it. Thank you.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Madam Chair. I just want to add 
my word of endorsement in support for Carol Carmody, who was 
raised in New Orleans, at least, and has a Louisiana 
connection. At a time when many people are looking for ways to 
get out of public service and out of Federal service, it is 
always terrific that we have someone who has made a career in 
public service and wants to continue in that capacity, and who 
brings to this position a great deal of background and 
experience in both international civil aviation as well as the 
practical politics of serving on the Commerce Committee. She 
has an understanding of how we make the laws, and how we like 
to see them followed through and enforced, and that combination 
of practical, real world experience, particularly in the 
international area, as well as the work here on the Commerce 
Committee I think is very, very important. Add to that the time 
spent, 11 years, I think, at the FAA, which really allows Carol 
to come to this position, I think, with a tremendous amount of 
experience, and I am just delighted that she is willing to 
continue in public service in this capacity, because everybody 
will benefit from it. Welcome.
    Senator Hutchison. Thank you, Senator Breaux. I am pleased 
that you noted that Ms. Carmody was raised in Louisiana, but 
she did choose Texas for her higher education.
    [Laughter.]
    Senator Hutchison. With that, I would like to welcome both 
of you, and let me turn first to the incumbent, Mr. Goglia, for 
any statement you would like to make for the record.

           STATEMENT OF HON. JOHN J. GOGLIA, MEMBER, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Goglia. Good morning, Madam Chairman and members of the 
Committee. I am honored to appear before you today as you 
consider my renomination to be a member of the National 
Transportation Safety Board. I would also like to thank the 
President for my renomination, and this Committee for 
scheduling this hearing.
    I would also like to acknowledge my fellow member, John 
Hammerschmidt, who is here in the audience. I would also like 
to introduce my wife, Patricia, and my daughter, Michelle, who 
have come down from Boston today to be with me.
    Senator Hutchison. I would like to ask them to stand. Thank 
you. Welcome.
    Mr. Goglia. For the last 4\1/2\ years I have had the unique 
privilege of serving as a member of the Safety Board and 
working with skilled and dedicated, committed professionals who 
are passionate about safety. I believe that we have made a 
difference. Our accomplishments would not have been possible 
without the continued support of this committee, and I thank 
you.
    I would like to briefly highlight three areas in which I 
believe I have made significant contributions. Since 1995, I 
have seen an increase in accidents involving maintenance. I 
have continued to highlight the importance of maintenance and 
the maintenance professionals in our aviation transportation 
system. Personnel quality, as well as quantity, are challenges 
facing this industry, and I have proactively worked with the 
industry to ensure that the new aviation work force not only 
understands how important the work is, but also understands the 
safety implications of every task performed.
    Human factors, including human error and fatigue, are 
indicated as causal factors in transportation accidents more 
often than any other element. I have diligently pursued 
increasing awareness of the human element by participating in 
and coordinating workshops and seminars. I have been 
instrumental in bringing together the resources of industry, 
academia, and the Department of Defense, to expand the 
cooperative base on which our safety recommendations can be 
made.
    Another initiative I have focused on is training to 
counteract human error. Mentoring practices between junior and 
senior personnel are necessary, and diminish the learning 
curve. A concerted effort to reach out to our youth to involve 
them in our goals and have them become an integral part of the 
solution to these issues has been my mission in promoting 
safety throughout the transportation industry. The youth of 
today are vital to our continued mission.
    In closing, I believe my 37 years of experience in the 
operational and maintenance environment demonstrates to the 
members of this committee my dedication to transportation 
safety and my strong commitment to work on behalf of the 
traveling public. This is the tradition of the NTSB, and if 
confirmed I will do my best to uphold this tradition.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Goglia follow:]

          Prepared Statement of Hon. John J. Goglia, Member, 
                  National Transportation Safety Board
    Good Morning.
    Madam Chairman and Members of the Committee, I am honored to appear 
before you today as you consider my renomination to be a Member of the 
National Transportation Safety Board. I would like to thank the 
President for my renomination, the Committee for scheduling this 
hearing and Senator Kerry for his kind words of introduction and 
continued support.
    With the permission of the Chairman, I would like to introduce my 
wife, Patty, and my daughter, Michelle, who are with me today. I would 
also like to acknowledge my other daughters, Marissa and Marie, who are 
unable to attend today's hearing.
    For the past 4\1/2\ years, I have had the unique privilege of 
serving as a Member of the Safety Board and working with skilled, 
dedicated and committed professionals who are passionate about safety. 
I believe that we have made a difference. Our accomplishments would not 
have been possible without the continued support of this Committee and 
I thank you.
    I would like to briefly highlight three areas in which I believe I 
have made significant contributions.
    Since 1995, 1 have seen an increase in accidents involving 
maintenance. I have continued to highlight the importance of 
maintenance and the maintenance professional in our aviation 
transportation system. Personnel quality as well as quantity are 
challenges facing this industry. I have proactively worked with 
industry to insure that the new aviation workforce not only understands 
how important the work is, but also understands the safety implications 
of every task performed.
    Human factors, including human error and fatigue, is indicated as 
causal in transportation accidents more often than any other element. I 
have diligently pursued increasing awareness of the human element by 
participating and conducting workshops and seminars. I have been 
instrumental in bringing together the resources of industry, academia 
and DOD to expand the cooperative base on which safety recommendations 
can be made.
    Another initiative I have focused on is training to counteract 
human error. Mentoring practices between junior and senior personnel 
are necessary and diminish the learning curve. A concerted effort to 
reach out to our youth, involve them in our goals and have them become 
an integral part of the solution to these issues has been my mission in 
promoting safety throughout the transportation industry. The youth of 
today are vital to our continued mission of safety.
    In closing, I believe my 37 years of experience in an operational 
and maintenance environment demonstrates to the Members of this 
Committee my dedication to transportation safety and my strong 
commitment to work on behalf of the traveling public. This is the 
tradition of the NTSB and, if confirmed, I will do my best to continue 
to uphold this tradition.
    Thank you. That concludes my opening statement and I would be glad 
to answer any questions that you may have.
                      a. biographical information
    1. Name: John Joseph Goglia.
    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of nomination: August 5, 1999.
    4. Address: (List current place of residence and office addresses.) 
Office: National Transportation Safety Board, 490 L'Enfant Plaza East, 
SW, Washington, D.C. 20594. Home in D.C.: 1464 South Greenmount Drive, 
Apt. 109, Alexandria, VA 22311. Home in MA: 73 Auburn Street, Saugus, 
MA 01906.
    5. Date and place of birth: May 18, 1944, Boston, MA.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married: Patricia Dolores Guarino Goglia.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Marissa Rozenski, age 32; Michele Dafonte, 
age 30; Maria Dafonte, age 29.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

1996-1997                 University of Southern California, Institute
                           of Safety and Systems Management, 26 Credit
                           Hours Earned
1993                      Federal Rulemaking Drafting Program, Federal
                           Aviation Administration
1984-1985                 Institute of Safety Symposium, University of
1986-1987                  Southern California
1984                      Rules of Procedure Program, National
                           Transportation Safety Board
1976                      Center for Labor Education and Research,
                           University of Colorado
1975                      Labor Leadership School, University of Alabama
1968                      IAMAW, Shop Steward Training Program
1966                      United Airlines, Management Training Program
1964                      University Extension Program, University of
                           Massachusetts, Technical Writing Program
1963                      Graduate, East Coast Aero Tech, Bedford,
                           Massachusetts
1963                      FAA A&P License


    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
National Transportation Safety Board
Member; 1995-present
    The National Transportation Safety Board (NTSB) consists of five 
members. 
Appointed by the President and confirmed by the U.S. Senate. Members 
serve five-year terms. The NTSB is the primary U.S. investigatory body 
for aviation, railroad, highway, marine and pipeline accidents. The 
NTSB investigates accidents and reports on the facts, conditions and 
circumstances of each accident investigated. The NTSB determines 
probable cause and develops appropriate safety recommendations. The 
NTSB monitors all transportation modes and analyzes on-going safety 
issues in order to make safety recommendations to governmental entities 
and private industry.

Highlights--Member Goglia's Present Term:

On-Site Board Member--Serves as chief accident spokesman.

        --Rail/School Bus Accident. Fox River Grove, Illinois
        --Commuter Rail Accident. Silver Spring, Maryland
        --FEDEX MD-11 Cargo Aircraft Accident, Newark, New Jersey

Chairman of Board of Inquiry

    Serves as presiding official at public hearings on accidents which 
includes the presentation of NTSB staff investigatory fact-finding and 
public testimony. Coordinates the compilation of the technical and 
public record, which results in the presentation of the findings to the 
NTSB Members for appropriate decisions.

        --ValuJet Airlines, Everglades, Florida Accident
        --Delta Airline, Pensacola, Florida uncontained Engine Failure 
        Accident
        --Union Pacific Special Review of Railroad Accidents

Human Factors Activities

        --FAA/JAA/Aviation Industry--International Maintenance 
        Conference; Human Factors Issue Chairman, Washington, DC
        --SAE International Human Factors Symposium; Human Factors 
        Issue Chairman, Vancouver, British Columbia
        --International Civil Aviation Authorities Maintenance 
        Conference; keynote Speaker and Human Factors Discussion 
        Leader, Singapore
        --World Aviation Congress; Keynote Speaker, Los Angeles, 
        California
        --Other: Organizer and speaker at approximately twenty 
        additional Human Factors conferences, seminars and forums

Other Activities

        --Coordinated and Chaired Aviation Bird Strike Conference for 
        Government and Aviation Industry in Washington, DC and Boston, 
        Massachusetts
        --Speaker on aviation issues at American Bar Association and 
        NTSB Bar Association Annual and Issues Meetings. Keynote 
        speaker at Federal Aviation Law Judges Annual Convention
        --Speaker at maritime, railroad and pipeline conferences, 
        including Association of American Railroads and Great Lakes 
        Steamship Authority
        --Presented visiting lectures on aviation issues at University 
        of Southern California; Purdue University; College of 
        Aeronautics, New York City; and Dowling College
Aviation Maintenance Responsibilities & Aviation Issues Representation
1991-1995--International Association of Machinists and Aerospace 
Workers; Special Assistant: Aviation Issues and Enforcement/Safety 
Specialist
    Represented IAMAW on the Aviation Rulemaking Advisory Committee and 
Subcommittees. Served as IAMAW principal liaison officer with the FAA, 
NTSB, DOT and other Executive Branch Agencies as well as liaison for 
IAMAW Congressional aviation issues. Served as IAMAW/USAir principal 
enforcement/safety representative for investigating, preparing and 
presenting defenses to enforcement actions and serving as team 
coordinator of aircraft accident investigations.

1966-1995--USAir, Logan International Airport, Boston, Massachusetts
    Lead Line Maintenance, 1988-1990--Responsible for managing a line 
maintenance crew of twelve mechanics, including all work performed on 
engines, avionics and airframe. Responsible for work performance, 
quality control, maintenance record-keeping and aircraft flight 
certification. Assigned temporarily to manage the integration of PSA 
airline maintenance personnel into USAir maintenance.
    Inspector 1984-1988--Performed all inspection functions, including 
review of all maintenance task documents and documenting completed 
work, and returning the aircraft to service. Special functions included 
knowledge and performance/reading of non-destructive testing methods 
including x-ray, ultra sound, eddy current, magnetic particle and 
penetration technologies.
    Lead Mechanic, 1972-1984--Responsible for managing a line 
maintenance crew performing letter aircraft inspections. Responsible 
for work performance, quality control, maintenance record-keeping for 
work performed and aircraft flight certification. Responsible for 
managing a line maintenance crew of twelve mechanics, including all 
aspects of engine, avionics and airframe maintenance. Responsible for 
work performed, quality control, maintenance record-keeping for work 
performed and aircraft flight certification.
    Line Maintenance Mechanic, 1966-1972--Responsible for performing 
maintenance on engines, avionics and airframes.

1964-1966--United Airlines, Washington National Airport, Washington, DC
    Line Maintenance Mechanic--Responsible for performing maintenance 
on engines, avionics and airframes.
Enforcement/Safety Responsibilities
1989-1995--IAMAW Representative: FAA/Industry Human Factors in Aviation 
Maintenance
    Served as IAMAW representative on Committee and in official forums 
analyzing and researching human factor elements of aviation 
maintenance. Charged with developing new procedures and workplace 
facilities that enhance the quality of maintenance and mechanic safety.

1984-1995--IAMAW District 141 FAA Safety and Accident Coordinator 
Investigation Committee
    National Coordinator of flight safety, policy development, 
management/mechanic training and legislative activity, involving over 
25,000 IAMAW mechanics. Principal official responsible for representing 
IAMAW mechanics in enforcement actions involving the FAA and NTSB's 
administrative law proceedings. Enforcement responsibilities including 
interviewing, investigation, case preparation, defense strategy and 
case presentations before the appropriate legal authorities. Managed 
IAMAW officials for formal investigations into causes of commercial 
airline accidents, working with FAA and NTSB team members.

1969-1995--Member; 1980-1984: Chairman, USAir Grievance Committee
    Represented IAMAW mechanics in the New England region in 
grievances, disciplinary actions and worker's compensation proceedings. 
This included case investigations, case preparations and presentations 
and representation before appropriate officials.

1972-1995--Chairman, FAA Committee, IAMAW Lodge 1726
    Responsible for liaison with FAA officials concerning flight safety 
enforcement actions involving IAM mechanics in the New England region. 
Responsibilities included recommendations of appropriate flight 
standard and certification procedures to ensure proper aircraft 
maintenance and flight safety. Coordinated with IAMAW mechanics to 
ensure proper representation of their interests in enforcement actions 
before appropriate federal officials.

1970-1980--Chairman, Ground Safety Committee, IAMAW Lodge 1726
    Responsible for maintaining and advancing workplace safety for 
IAMAW mechanics working in New England's commercial airport facilities. 
Responsibilities included facility review, safety procedures review, 
human factor analysis and recommendation of appropriate safety 
procedures. The Committee received the Outstanding Performance Award 
from Hartford Insurance Group in 1975, and the Award of Merit for 
Accident Control from Hartford Insurance Group in 1979.
Private Business
1984-1988--Owner/President, Air Carrier Support, Inc., Logan 
International Airport, Boston, MA
    Managed company operations to provide line maintenance services for 
commercial freight operators. Managed company financial affairs and 
accounting staff.
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
1991-1995--IAMAW National Representative, Aviation Rulemaking Advisory 
Committee
    Served as the IAMAW member on the joint FAA Aviation Industry 
Committee involved with reviewing and updating all sections of the 
Federal Aviation Regulations, including drafting new rules, regulations 
and guidance materials. Served as Chairman of the Cabin Seats 
Subcommittee, Part 43 Subcommittees and Cabin View Subcommittee. Served 
as member on additional sixteen ARAC subcommittees. Served as IAMAW's 
principal spokesperson on ARAC related activities.

1988-1994--Member, Massachusetts Worker's Compensation Advisory Board
    Governor's appointee to task force to monitor the implementation of 
Massachusetts Worker's Compensation Law

1988-1989--Member, Blue Ribbon Commission for Airport Locations
    Served as Governor's appointee for Blue Ribbon Commission to study 
and select site for second major airport in the greater Boston area.
1983-1984--Transition Chief/Executive Assistant, Secretary of Labor, 
State of Massachusetts
    Represented the Labor Secretary and responsible for the management 
of transition functions of the Labor Department during the change in 
gubernatorial administrations. Served as Labor Secretary's negotiator 
for the reform of worker's compensation law and legislative and public 
interest group coordinator.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    GES Leasing--Shareholder--50% and Treasurer (1976-1994); Air 
Carrier Support--Shareholder--approximately 30% and Treasurer (1985-
1992); Holyoke Street Partnership (rental property)--50% owner; Counsel 
of Aviation Accreditation--Standard Safety Counsel for Aviation Schools 
(1998-1999); Aerospace and Transportation Education Association (1998-
1999).
    12. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) International Society of Air Safety Investigators 
(present); Aero Club of Washington (present); International Association 
of Machinists and Aerospace Workers; Professional Aircraft Mechanics 
Association; National Aeronautic Association; National Coalition for 
Aviation Education, Chairman (1995); Experimental Aircraft Association.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. From 1964 to 1995, I was 
a member of the IAMAW Political Action Committee in which I contributed 
approximately $150 for the years 1990 to 1995.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
1998--Honorary Doctorate--College of Aeronautics New York City, NY; 
1994--FAA Technician of the Year; 1994--Eastern Regional Technician 
Award; 1994--Boston FSDO Technician Award.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

1993                      Developed IAMAW/FAA training program for air
                           carrier mechanics.
1992-1995                 Developed and implemented the first
                           Maintenance Resource Management Program in
                           aviation maintenance for USAir.
1986-1987                 Developed comprehensive maintenance training
                           program for aviation safety specialists for
                           several major air carriers.


Contributing Author--Continuing
    Aircraft Maintenance Technician Magazine; Avionics News Magazine 
Aircraft Electronics Association; Aeronautical Repair Station 
Association, Monthly News Letter; Mass Transit Magazine (Devoted to 
commuter rail transportation); IAMAW ``Messenger'', National Newspaper; 
IAMAW Lodge 1726, Monthly Newsletter; Selected contributor to numerous 
aviation periodicals.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    I have given numerous speeches, participated in technical panels, 
and provided testimony at government and industry events that focus 
attention on transportation safety issues about which the Board has 
made recommendations for corrective action. Enclosed are copies of 
several formal speeches delivered over the past five years. Many 
speeches delivered are derivatives thereof or are delivered 
extemporaneously.
Remarks Presented to Transportation Table, Washington, D.C., June 14, 
        1996
    Good afternoon, everyone. It is a pleasure to be here with you 
today. I am honored to have been given the opportunity to briefly share 
with you some of my thoughts regarding aviation safety questions which 
we, as industry professionals, need to address. Since our group today 
consists of representatives of most modes of transportation which we at 
the NTSB are involved with, I will try to integrate my thoughts in 
order to reflect my observations that many of the aviation safety 
questions which we address, in some manner must also be addressed 
within the other modes of transportation. Further, I hope that my 
comments will lead to your questions, and your ideas, which we can 
discuss within the time which has been allotted to me.
    In response to the subject which I am specifically addressing, I 
believe the biggest question ahead in aviation is intrinsically inter-
woven into the fabric of the other modes of transportation. That 
question is--how do we, as transportation manufacturers or operators, 
safety oversight officials, regulatory agencies and legislative bodies, 
integrate the science of human factors into our transportation system?
    All of us in aviation know the statistics: Human error of one kind 
of another is responsible, in some manner, for the majority of 
incidents and accidents. This is true in all modes of transportation, 
and, in fact, it is true in reference to the design, manufacture, 
operation and maintenance of any technologically complex system. 
Similarly, every human error, regardless of its gravity, is a product 
of multiple causes and factors. The performance of individuals never 
takes place in a vacuum, but always occurs within an organizational and 
cultural context. If this is true, then there is another big question: 
Why can't the process of establishing causal factors in transportation 
accidents be from a view of improving the system rather than 
establishing blame?
    Even with this knowledge and these questions, the science of human 
factors is a relatively new field of study. However, I believe that the 
aviation industry, in addressing the importance of developing aviation 
maintenance human factors programs within their organizations, is 
leading the way in this exceptionally important area. But this area of 
study is in its pioneer stage and its complexity and is sometimes 
frustrating to those who have chosen to set out on this mostly 
untraveled road. The exploration of the unknown has almost always 
yielded tremendous dividends, and I strongly feel that the work we can 
do in comprehensive human factors, is the key to combining the rapid 
technological advances we are achieving in transportation equipment and 
system's operations into an inter-modal transportation system which can 
attain a higher degree of safety than most individuals thought possible 
before the human factors pioneers began their journey just a short time 
ago.
    In the aviation community, most industry and regulatory 
representatives have signed on to the ultimate goal of ``zero 
accidents.'' This is also a worthy goal for all other modes of 
transportation. The question is--will we ever achieve ``zero 
accidents''? Realistically, probably not. However, I can assure you 
this lofty goal is beyond our reach unless we recognize and incorporate 
the effects of human factors in the workplace into the safety equation. 
Technology will continue to advance. Safety regulations will continue 
to be promulgated and integrated into the operation of the 
transportation system. However, human factors is the only area that can 
successfully define the relationship of men and machines in a 
transportation environment. Understanding human factors is good 
business, and is the key to approaching the goal of ``zero accidents.''
    In commercial aviation, we are combing recent accidents for the 
probable cause or causes of these tragedies. Rail and surface 
transportation came tragically together an Fox River Grove, Illinois. 
High speed rail has suffered recent deaths in New Jersey and Maryland. 
Derailments have occurred recently resulting in loss of life and 
environmental pollution. Pipeline explosions have taken lives and 
driven people from their homes. And we are all aware of maritime 
accidents which have caused irreparable damage.
    Of course each of these accidents will have unique factors which 
contributed to its cause or causes. But I think I can state with 
confidence that a better understanding of human factors would have 
prevented some of these accidents.
    Are there other ``Big Questions''? Certainly.
    How do we streamline the regulatory process to implement safety 
procedures in a more timely manner? Today, in aviation, where the FAA 
is ``Fast-tracking'' rulemaking in the Part 135 area, the on-demand 
carriers feel that their concerns are being over-ridden by the haste in 
which the FAA promulgated these changes. The question then becomes, how 
do we balance pertinent interests and still achieve efficient 
implementation of safety rules and regulations.
    In rail, we are, in certain instances, handcuffed by a regulatory 
system which is unnecessarily based on rigid legislative standards 
which have not kept pace with modern advances in the industry. The 
question is, how do we transform this inflexible system into a system 
which recognizes the economic and safety needs of modern rail 
transportation?
    Since I do not want to extend my comments into the time remaining 
for our discussion period, let me just mention some additional 
questions which come to my mind.
        <bullet> How do we integrate Global Positioning System (GPS) 
        into all modes of transportation?
        <bullet> How do we effectively deal with chemical and alcohol 
        abuse in transportation?
        <bullet> How do we provide safer control of aircraft on the 
        ground?
        <bullet> How do we deal with the railroad industry regarding 
        collision avoidance systems?
        <bullet> How do we deal with human fatigue in transportation 
        operations?
    Obviously, there are many others.
    While I was given the topic of aviation safety, you can see that I 
believe that the challenges which lay ahead for all of us really do 
transcend the boundaries of all our transportation systems. These are 
challenges which we can all work together to achieve in each of our 
particular modes of transportation.
    Now, let's discuss your thoughts and perspectives on these 
subjects. Any questions?
Presentation before the American Bar Association, Seminar on Aviation 
        Litigation, Over-View of Responsibilities of National 
        Transportation Safety Board Concerning Aviation Accidents, June 
        28, 1996
    When an aviation accident occurs, emergency response is immediate. 
Local authorities--including the police, fire department, paramedics 
and the coroner--respond to the scene as quickly as possible to secure 
the accident site, and insure that the wreckage is net disturbed. They 
provide medical care and other assistance to the survivors, and provide 
for the identification and removal of those who have perished.
    At the same time the initial on-scene response is occurring, 
Federal agencies which have jurisdiction in this area are notified of 
the accident. This includes the Department of Transportation, the 
Federal Aviation Administration (FAA), the National Transportation 
Safety Board (NTSB), and in some cases the Federal Bureau of 
Investigation (FBI).
    The Secretary of Transportation ensures that requested federal 
resources are made available, and he or she moves swiftly to take 
action on any safety recommendation that comes to light. The Secretary 
does not comment on the investigation. This is the sole responsibility 
of the NTSB.
    The FAA is required by law to be a participant. They provide 
technical support, but do not take part in the determination of the 
probable cause. The FAA also determines whether any of its activities 
were involved in the accident. This includes, for example, performance 
of FAA facilities or functions, airport operations or certification 
safety standards, and airworthiness of FAA-certified aircraft.
    The NTSB is responsible for determining the probable cause of 
transportation accidents, and for formulating safety recommendations to 
improve transportation safety. Within hours the NTSB sends its ``go-
team'' of investigators to the accident site. The make up of this ``go-
team'' varies, based on the type of accident, but generally it is 
comprised of one of the five Board members and a half dozen or more 
personnel who possess a wide range of accident investigation skills. In 
the case of an airline accident, the NTSB supervises work teams 
comprised of technical experts to assist in the investigation. This may 
include manufacturers, airline personnel, mechanics, etc.
    Unless the accident is caused by a terrorist act, the NTSB is in 
charge of the investigation. They secure the site in order to protect 
evidence, and interview witnesses. They ensure that the facts become 
known, and work to uncover the cause of the accident.
    At this stage of the investigation, lawyers are not allowed at the 
crash site.
    In cases where terrorism is suspected, the accident site is 
initially considered a crime scene, and the FBI is in charge. The NTSB 
will assist as requested in this effort.
    The length of time the ``go-team'' remains on the scene varies with 
need, but generally a team completes its on-scene work in seven to ten 
days. The Safety Board remains in charge of the accident site until it 
determines the site is no longer critical to its investigation.
    The Safety Board takes its responsibility to keep the public 
informed very seriously. Often, when a major accident occurs and the 
probable cause is not readily apparent, there is considerable 
speculation by the press and public about what happened. The Board 
follows a policy of providing factual information--and only factual 
information--on the progress of the investigation at regular press 
briefings. These briefings do not speculate about the possible causes 
of the accident.
    The Safety Board will spend several months following the on-scene 
investigation, further exploring the data, to arrive at the probable 
cause of the accident. Approximately two to four months after an 
accident, factual reports written by NTSB investigators are made 
available in a public docket at NTSB headquarters.
    As the investigation progresses, the NTSB may elect to hold a 
public hearing to address related safety issues as well as the probable 
cause of the accident. The hearing is usually held at a location near 
the accident site, and can sometimes be highly technical. Witnesses may 
be subpoenaed to testify who have impressive engineering and/or 
technical backgrounds. Sworn testimony is taken by a panel of NTSB 
officials.
    Actual participation in the hearing is limited to invited witnesses 
and parties to the investigation. This is an opportunity for various 
experts to testify in an effort to explain what may have happened, and 
questions or statements from uninvited witnesses will not be allowed.
    With the completion of the fact-finding phase, the accident 
investigation process enters its final stage--analysis of the facts, 
conditions and circumstances found. The analysis results in the Safety 
Board's determination of probable cause.
    A draft accident report is presented to the five-member board for 
discussion and approval at a public meeting in Washington, D.C. The 
date of this meeting is published in advance in the federal register, 
and is also released to the media. The entire investigative process may 
take from seven to twelve months.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    (a) I have not been provided with specific details with regard to 
the reasons for my nomination. However, I believe that I have made 
noteworthy contributions in my duties as a Board member over the past 
four years. I continue to work on human factors issues, along with 
discussing, through speeches and attendance at conferences and 
symposia, the issues on the Board's ``Most Wanted'' list. As you are 
aware, these are the ten issues the Board believes can save the most 
lives.
    (b) I believe my background and qualifications highly qualify me 
for another term as a member of the Board. Before my tenure as a Board 
member, I worked for over a quarter of a century in the aviation field, 
with eight of those years as coordinator for the International 
Association of Machinists' Accident Investigation Team. As a Board 
member, I accompanied Go-Teams to the school bus grade crossing 
accident in Fox River Grove, Illinois; the MARC train and Amtrak 
collision near Silver Spring, Maryland; and the Federal Express MD-11 
accident in Newark, New Jersey. In addition, I presided over public 
hearings held regarding the tragedies involving ValuJet near Miami, 
Florida, and Delta Airlines in Pensacola, Florida. My four years as a 
Board member have been the most challenging and satisfying of my 
career. Through hard work, the Board makes a difference, whether it be 
educating pilots on the hazards of bird strikes, or making changes in 
the way a railroad addresses safety issues such as fatigue, and I look 
forward to the challenges ahead.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Not applicable. Because I have served as a 
Member of the National Transportation Safety Board for the past 4 
years, I have already severed all connections with my former employers 
and business associations.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. I am retired from and receive a pension from 
USAir. I am in a real estate partnership with my brother.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? NTSB Counsel approved the 
retirement arrangements made with my former employer, USAir, prior to 
my confirmation in 1995. It was determined that my pension was not so 
substantial a financial interest that would likely affect the integrity 
of my services. I continue to abide by this agreement.
    GES Leasing and Air Carrier Support, both companies of which I was 
a shareholder within the last 10 years are transportation-related 
companies that could have conceivably had interests before the NTSB. 
However, both companies no longer exist.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. 1993-1994: 
General Aviation Revitalization Act; 1992: Revisions of civil penalties 
regarding violations by mechanics under the provisions of the Federal 
Aviation Regulations and related rules and regulations.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I am 
retired from US Airways. US Airways is an air carrier, and has 
interests that could be affected by actions of the NTSB. As such, it 
would be unlawful for me to participate personally in an official 
matter that could affect its financial interests. In 1995, the Chairman 
of the NTSB determined that my pension was not so substantial a 
financial interest that would likely affect the integrity of my 
services, and he therefore issued a waiver to me under 18 USC 208 (B) 
(1). I have agreed with the Ethics Official of the NTSB that I will 
request another waiver upon confirmation.
    Nonetheless, because of the sensitivity of the Board's 
investigative process, I have since disqualified myself from serving as 
the on-scene Member or chairman of a Board of Inquiry in an accident 
investigation involving US Airways. As a result of my disqualification, 
the Managing Director of the NTSB has agreed that it would be 
permissible for my wife to avail herself of the free flying benefits 
for which she is eligible as the dependent of a retired airline 
employee, but that I will forgo these benefits to avoid any appearance 
of impropriety.
    Finally, I have agreed that in all particular matters involving US 
Airways or IAM, I will continue to consult with the General Counsel and 
the Agency Ethics Official before involving myself in such official 
matters, in accordance with the Uniform Standards of Conduct. 5 CFR 
section 2635.502.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. 1982--Medical 
Malpractice (settled) Phoenix, AZ; 1990--Shareholders Action (settled) 
Boston. MA.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated.
    I am an internationally recognized expert in aviation maintenance 
and aircraft operations. In August 1995, I was sworn in as a Member of 
the U.S. National Transportation Safety Board.
    I am the first working A&P mechanic to serve on the Safety Board, 
and have over thirty years of aviation experience. Before my Senate 
confirmation in 1995, I was with USAir and was the recipient of the 
prestigious 1994/Industry Aviation Mechanic of the Year Award.
    I have been a leading advocate regarding the evaluation of human 
factors in the aviation workplace. I helped develop the Maintenance 
Resource Management Program, combining management, labor, regulatory 
agencies and academia into what has become the premier human factors 
program in aviation maintenance.
    I served as the Governor's appointee to the Massachusetts Workers 
Compensation Board and to the Boston Area Second Airport Site Selection 
Board.
    I also served as Team Coordinator of the International Association 
of Machinists and Aerospace Workers' (IAMAW) Accident Investigation 
Team and for over 21 years served as the IAMAW's Flight Safety 
Representative. I was the IAMAW's principle specialist on aviation 
issues, service as liaison to the FAA, NTSB, DOT and other executive 
branch agencies as well as the U.S. Congress. I represented the IAMAW 
on the aviation Rule Making Advisory Committee, which evaluates and 
recommends changes regarding aviation safety and operational 
regulations.
    In 1995, I served as Chair and a founding member of the National 
Coalition for Aviation Education, an aviation industry organization 
that advances aviation education among America's youth and aviation 
workforce. I was an original member of the Steering Committee to 
establish International Society Aviation Maintenance Professionals, a 
professional society dedicated to advanced safety and professionalism 
throughout the aviation maintenance industry. I have become an 
internationally known speaker and author addressing aviation safety 
issues, lecturing at world symposiums and serving as contributing 
editor to several industry periodicals. In 1960, I learned to fly in a 
Piper J2-J3 and, for over ten years, I was owner/operator of an 
aircraft service company.
    I have been Member on scene for the Safety Board's investigations 
of the school bus grade crossing accident in Fox River Grove, Illinois; 
the MARC train and AMTRAK collision near Silver Spring, Maryland, and 
the FEDEX MD-11 accident in Newark, New Jersey. In January 1996, I 
chaired a briefing for Government and industry representatives 
regarding the problem of ingestion of Canada Geese in the new 
generation of air carrier engines. I served as Chairman of the Board of 
Inquiry for the ValuJet accident near Miami, Florida and the Delta 
Airlines accident in Pensacola, Florida.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? With over thirty years of aviation 
experience and having served as a Member of the National Transportation 
Safety Board for the past four years, I am confident that I possess the 
necessary skills for renomination to this position.
    3. Why do you wish to serve in the position for which you have been 
nominated? It is a life-changing experience to investigate a major 
accident, and I have had the occasion to investigate numerous accidents 
from all modes of transportation. It has been a great privilege to 
serve as a Member of the NTSB for the past four years. I see the 
positive impact of the Board's work and my contributions to that work 
and want to continue to pursue the important initiatives we have 
already started for accident prevention. Each day I witness evidence of 
the Board's work when I see a child in a safety seat or sitting in the 
back seat of an automobile when a family member of a transportation 
victim thanks you for keeping them apprised of the Board's activities, 
or when I come to a railroad grade crossing and know that as a result 
of the Board's actions, the signal system has been checked to ensure 
that they are operating properly.
    The NTSB plays an important role in making our transportation 
system safe, and I look forward to the challenges ahead.
    4. What goals have you established for your first two years in this 
position, if confirmed? I continue to believe the one area that must be 
more fully addressed in all modes of transportation is human fatigue. 
The Board has been in the forefront on this issue, and I will work 
toward changes in the hours of service regulations in all modes of 
transportation. In addition, the Board's ``Most Wanted List of 
Outstanding Recommendations'' addresses those issues we believe will 
have the most safety benefit, and I will continue to draw attention to 
these issues.
    Additionally, I would like to see increased development and 
application of technology to enhance safety. I will continue to place 
added emphasis on addressing the root cause of accidents in the areas 
of human factors, and additional investigation of incidents to prevent 
the safety deficiencies from being manifested in accidents.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. The 
NTSB has a long record of identifying problems and issuing 
recommendations to the transportation industry which are key to 
accident prevention. The Safety Board has a long history of partnering 
with industry to accomplish its safety mission.
    The NTSB has the role in transportation safety to recommend 
improvements. This independent role is essential for safe travel and 
could only be supported on a national level by the government. The 
private sector plays a multifaceted role in transportation as the 
provider and innovator of transportation systems.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. To continue 
to prevent transportation accidents from occurring and promote the 
safest forms of transportation available in a proactive manner.
    As part of the Board's major programs, we are tasked with 
investigating aviation, rail, marine, highway, and pipeline accidents, 
determining the probable cause of these accidents, and making 
recommendations to prevent them from happening again.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years? Aviation is a growing international industry. Today's worldwide 
estimate of 15 million departures per year could grow to 33 million 
departures per year by 2015. Additionally, statistical studies indicate 
that, based on the accident rates for the past 10 years and the 
increasing number of transport category airplanes in service, by the 
year 2006 there will be one accident a week worldwide in which the 
airplane will be considered a total loss.
    International investigations are central to the Board's mission 
because every year the number of U.S.-manufactured and U.S.-registered 
aircraft being operated overseas increases, as does the number of 
foreign-manufactured aircraft operating in the U.S. As a result, safety 
issues that arise in foreign investigations often have wide-reaching 
implications for both the U.S. aviation community and for the worldwide 
aviation industry.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? Transportation safety oversight must receive 
adequate resources. The resources required for the NTSB to be prepared 
in the years ahead must accompany the reality of globalization.
    One of the primary challenges to the Board is keeping its staff 
current on the technical aspects of the transportation industry.
    The second challenge is responding world-wide to accident 
investigations with a limited staff. The week of September 1, 1999, 17 
NTSB staff members were in six different countries assisting in 
aviation accident investigations.
    Additionally, the Board must face the challenge of continuing to 
respond to the increased needs of family members following 
transportation disasters.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? The Safety Board has been highly effective 
in achieving over an 80% acceptance rate of its safety recommendations. 
The primary issue for the Board's future is linked to the availability 
of resources it has to do its job in light of what seems to be an ever-
expanding set of expectations.
    10. Who are the stakeholders in the work of this agency? First and 
foremost, the American public is the primary stakeholder. The public 
holds the Board in extremely high regard as a protector of safety 
standards that make the American transportation system the best in the 
world. Operators and manufacturers of transportation systems are an 
integral part of this group of stakeholders.
    Secondly, the Congress, with its own regard for public opinion and 
the need to maintain a sound and reliable transportation system, is 
also a stakeholder in the work of the NTSB.
    The Department of Transportation and its various regulatory 
agencies that respond to NTSB recommendations are also stakeholders.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. I 
have an extremely focused concern for transportation safety and believe 
that my role is to be an advocate for improved transportation systems. 
I believe that as a Board member, I have a responsibility to make 
realistic safety recommendations that can successfully be implemented 
to reach the unified goal of the Safety Board and its stakeholders, 
which is accident prevention.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Treat employees as I 
would want to be treated. My experience as a union steward has 
underscored my appreciation for mutual respect as the foundation for 
solid supervisory/employee relations.
    To my knowledge there have been no employee complaints brought 
against me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I am always willing to address any 
concerns of Congress. Prior to becoming a Board member, I testified 
before Congress on several occasions concerning aviation rules and 
regulations. As a Board member, my working relationship with Congress 
is limited. I review testimony to be presented, requests for changes in 
the Boards statute, and the Congressional budget.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. Although the 
Safety Board is non-regulatory agency, we as a Board have not hesitated 
to notify Congress regarding transportation safety issues that needed 
to be addressed. We will work closely with Congress to keep our 
programs goals closely aligned with significant public policy interests 
in transportation safety. I will continue to participate in this effort 
if confirmed.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Historically Congress has been supportive of 
strengthening the Board's authority and providing the tools the Board 
needs to execute its important responsibilities. I personally believe 
that the Board's request for reauthorization, which is pending in your 
Committee, should be a high priority. The changes requested are 
essential to maintaining the Board's continued high standards in 
accident investigation, and will go a long way to enabling us to hire 
and retain qualified personnel.
    Another issue that needs to be addressed is motor carrier safety. 
The Board has been investigating too many accidents where there has 
been little or no oversight, and I commend Chairman McCain for the 
introduction of legislation regarding this issue.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. I am certainly aware of the Board's 
history with regard to pressure by the White House and the 
Administration and the need for Board independence. I believe it is 
imperative that the Board maintain its independence, and that there 
should be no political pressure with regard to our decision making.

    Senator Hutchison. Ms. Carmody.

   STATEMENT OF CAROL J. CARMODY, MEMBER-DESIGNATE, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Carmody. Thank you, Madam Chairman. Good morning. First 
of all, I want to thank Senator McCain in absentia for agreeing 
to hold this hearing, and you, Senator Hutchison, for agreeing 
to chair it. I appreciate Senator Breaux coming to introduce 
me. I know what a busy schedule everyone has. I appreciate very 
much Senator Hollings' presence since I worked up here a number 
of years for him.
    It is very nice to be back in this Committee room too, I 
might say, and I wish to thank President Clinton for nominating 
me to the Board. I am very honored to be considered. Every 
since 1977, when I started work at the FAA, I have heard about 
the NTSB. Some of the time I was there I worked for Admiral Don 
Engen, who was Administrator and also a former Board member. I 
came to understand some of the I think healthy tension that 
existed between the FAA and the board, and probably between the 
board and all regulatory agencies.
    My time on the Commerce Committee gave me a good sense of 
the statutory underpinnings of the board, the sort of work they 
do, and the authority they have. I also had the opportunity, 
while I was on the Commerce Committee, to know a number of the 
Board members and to get acquainted with their work. I decided 
then that it was home to a very, very high level of public 
servants.
    I remember when the first ``Most Wanted'' list was 
introduced in 1990, and I have watched that develop through the 
years to be a very important tool the NTSB uses to highlight 
its priorities. I have also been aware of the interest and the 
support this committee has always given to the board and to its 
work. I think safety is clearly a collaborative effort with the 
Congress, with the regulatory agencies, the board, and the 
public.
    If I am confirmed to the position I certainly bring a 
longstanding and strongly held interest in improving aviation 
and transportation safety for the traveling public. My years at 
the FAA, my time on the Commerce Committee, and my service at 
ICAO have given me a broad understanding of the aviation 
industry, of the redundancies that exist in the industry, and 
of the occasional failures when accidents do occur.
    I think the successes of the board and the regulatory 
agencies have been remarkable in the 20 or so years I have been 
aware of them. I have no doubt there is much more to be done, 
and I think there will always be new and improved ways to 
address safety. I think there is probably no greater calling or 
higher pleasure for a public servant than to make the lives of 
fellow citizens better and travel safer, and so if I am 
confirmed I look forward with enthusiasm to taking up the role.
    Thank you very much. That is the end of my remarks, and I 
will be looking forward to questions.
    [The prepared statement and biographical information of Ms. 
Carmody follow:]

       Prepared Statement of Carol J. Carmody, Member-Designate, 
                  National Transportation Safety Board
    Good Morning. I want to thank the Commerce Committee for holding 
this hearing, and Senator Hutchison for chairing it. I am grateful to 
President Clinton for nominating me and I am proud to be considered for 
membership on the National Transportation Safety Board.
    Ever since I went to work at the Federal Aviation Administration 
(FAA) in 1977, I heard about the work of the Board. Later as I worked 
for Admiral Don Engen, FAA Administrator and former NTSB Member, I 
learned more about the efforts and successes of the organization. 
During my years on the Commerce Committee as an Aviation Staff member, 
I came to know many Board Members and to learn a bit about their work. 
I decided years ago the NTSB is home to an impressive group of public 
servants who do extremely important work. I remember when the first 
``Most Wanted'' list was developed, and I have witnessed some of the 
Board's successes. I remember too how supportive this Committee has 
always been of the Board's mission and requirements. Safety is a 
collaborative effort: the Congress, the regulatory agencies, and the 
Board all play a role.
    If confirmed I will bring to the Board a strong and long held 
interest in improving the safety of transportation for the traveling 
public. My years at the Federal Aviation Administration, on the Senate 
Commerce Committee and at ICAO have given me a broad understanding of 
the aviation industry, an appreciation for the remarkable redundancies 
in the systems, and a glimpse of the rare failures in those system 
which produce accidents. I think the Board and the transportation 
regulatory agencies have accomplished marvelous things in the past 
years; but there is more to be done, and there will always be new 
discoveries of ways to improve safety. I don't think there can be any 
higher privilege for a public servant than to help protect the welfare 
of fellow citizens. If confirmed by the United States Senate, I look 
forward to the opportunity to serve.
                      a. biographical information
    1. Name: Carol Jones Carmody.
    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of nomination: November 8, 1999.
    4. Address: 4535 Van Ness Street, NW, Washington, D.C. 20016.
    5. Date and place of birth: Houston Texas, August 14, 1942.
    6. Marital Status: Divorced. Former husband Robert F. Carmody, Jr.
    7. Names and ages of children: None.
    8. Education: American University 1981-1983 M.P.A.; University of 
Oklahoma 1961-1964, BA; Southern Methodist University 1960-1961; Louise 
McGehee School 1956-1960, Highschool Diploma.
    9. Employment record: (All jobs held since college)

1965-1967                 Liberty Mutual Insurance Company, New Orleans,
                           LA. Insurance claims adjustor in casualty
                           claims office.
1967-1968                 Braniff Airlines, New Orleans, LA. Ticket and
                           reservations agent.
1968-1971                 Central Intelligence Agency, Washington, D.C.,
                           Editor and intelligence analyst.
1972-1973                 Bailey Employment Agency, Milford, Ct., Owner
                           and manager.
1973-1977                 Trust Fund Consultants, Inc., Washington, D.C.
                           Manager of firm which administered pension
                           and medical plans for labor unions.
1977-1985                 Federal Aviation Administration, Washington,
                           D.C. Budget analyst and then manager of
                           budget formulation division.
1985-1988                 Federal Aviation Administration, Washington.
                           D.C. Deputy Director, Congressional
                           Relations, Office of Administrator.
1988-1994                 Senate Commerce Committee, Washington, D.C.
                           Professional aviation staff.
1994-1999                 Department of State. U.S. Representative to
                           the Council of the International Civil
                           Aviation Organization, Montreal, Quebec,
                           Canada. Appointed by the President to
                           represent the US in this United Nations body
                           which establishes standards for international
                           civil aviation.
1999-present              Consultant. Clients include Air Transport
                           Association, Washington, D.C. on subjects of
                           noise and the environment; Baker, Donelson,
                           Bearman and Caldwell of Washington, D.C. on
                           the subject of the European hushkit issue.


    10. Government experience: (Any advisory, consultative, honorary or 
other part-time service or positions with Federal, State, or local 
governments, other than those listed above.) None.
    11. Business relationships: Partner, One Park Washington. I was one 
of three limited partners; my husband was general partner in the 
ownership of an office building in Falls Church, Va. He and I sold our 
interests in the building to the other two partners in February 1998.
    12. Memberships: I am a member of the Aero Club of Washington, the 
International Aviation Club, Executive Women in Aviation, American 
University Park Citizens Association, Humane Society of the US, Junior 
League of Washington.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. Registered Democrat since 1991; previously registered Republican 
in D.C. to vote for mayor.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. No single contribution of 
this size.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    Federal Aviation Administration Award for Extraordinary Service, 
1999; Louise S. McGehee School Award for a Distinguished Alumna 1996; 
Outstanding performance awards in 1981, 1983 and 1985 while working at 
the FAA.
    15. Published writings: Safety Oversight at ICAO appearing in ICAO 
Journal, fall 1994.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    I spoke to the Aero Club of Washington twice and, among other 
things, addressed the issues of international air safety and programs 
to improve it.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? I believe the President chose me because my background 
demonstrated that I have a comprehensive knowledge of the aviation 
sector and because I have demonstrated the ability to work with 
technical information, draw conclusions and produce results.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? My work at 
the FAA gave me a first hand view of the regulatory agency and its 
relationship to the NTSB. My work on the Senate Commerce Committee gave 
me the opportunity to become familiar with the work of the NTSB; its 
mandate and its structure. My acquaintance with the industry has given 
me an understanding of the impact NTSB has on it, and of the 
interrelationships that exist and should exist between them. All of 
these factors will help me in assessing information as a Board member 
and working to reach conclusions and recommendations which will improve 
safety.
                   b. future employment relationship
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your fall term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. I am a consultant to the Air Transport 
Association, and to Baker, Donelson, Beannan and Caldwell. My 
consulting work will cease, as will my payments, when I begin 
employment at the NTSB. I will not have any deferred compensation 
agreements.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past ten years in which you 
have engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. In my consulting 
work this year, I have been trying to persuade the U.S. government to 
take action against the European Union for the EU hushkit rule, which 
would prohibit certain aircraft from operating in Europe. I have 
attempted to persuade both authorizers and appropriators staffs to 
include language in the relevant bills directing the U.S. government to 
take specified action against the EU.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. If potential conflicts of interest are identified, I will 
consult with the appropriate ethics officials and take the steps 
recommended to resolve the issue.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association disciplinary 
committee, or other professional group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? Yes. On May 18, 1998 I was arrested 
and charged with misdemeanor--simple assault--by D.C. Police. US 
Attorney dismissed charge. No paper--no prosecution. Date was May 18, 
1998 in Washington, D.C. in Superior Court of District of Columbia.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. I have nothing to add.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, to the 
extent of my authority to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the extent of my authority 
to do so.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualify you for the position for which you have been 
nominated. I have worked in the aviation arena since 1977 when I took a 
job at the FAA. After 11 years at that agency, I was fortunate to work 
as an aviation staff member on the Senate Commerce Committee. In that 
position I became intimately acquainted with the work of the NTSB. 
Working on the Board's reauthorization, I became aware of its mission 
and function regarding all modes of transportation. My work on the 
Commerce Committee and then at the International Civil Aviation 
Organization has given me a broad understanding of the transportation 
industry and its components. I have the ability to sift through data 
and draw conclusions. While I was at ICAO I had the opportunity to 
manage teams of technical experts from disparate disciplines to achieve 
common goals; I believe that experience prepares me for the job of 
managing investigations, promoting and supporting the work of the 
technical experts who determine the cause of accidents and make 
recommendations to prevent the recurrence of such accidents.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Although I am familiar with the Board's 
work in all modes of transportation due to my work on the Senate 
Commerce Committee, most of my experience has focused on the aviation 
arena. There are important safety issues in the other modes of 
transportation, and I will make a concerted effort to become well 
acquainted with each.
    3. Why do you wish to serve in the position for which you have been 
nominated? I have spent over 25 years of my career with the government 
and have found it to be extremely rewarding. I would like to continue 
my public service, and believe that I have the combination of 
experience, maturity and determination that this job deserves. I look 
forward to making a positive contribution to improving safety for the 
travelling public.
    4. What goals have you established for your first two years in this 
position, if confirmed? First, I would become more knowledgeable about 
the Board's current activities, particularly in the surface modes of 
transportation.
    Second, along with my fellow Board Members, I will work to 
implement the items on the NTSB's ``Most Wanted'' list. The list 
identifies those safety recommendations which can have the greatest 
impact on transportation safety. Since its inception, I believe it has 
had a positive impact on safety.
    Third, I am interested in the issue of aircraft certification and 
the method in which safety improvements may be incorporated in the 
design of new aircraft. I hope to explore this subject further if I am 
confirmed to the Board.
    5. Please discuss your philosophical views on the role of 
government. I believe government can be a beneficial and positive force 
in the lives of citizens. I think there is much that the private sector 
and ``market forces'' can accomplish to make society better and life 
more productive; however, in areas of public health or safety or 
transportation, I believe the government has an important role as 
overseer and regulator. For example in the areas of transportation I do 
not think it is reasonable to expect market forces to produce the 
safest systems for the travelling public. It is important for the 
government regulators to set the standards high enough to protect the 
public, yet still weigh the cost and effect of the standards on the 
public. It is crucial that an independent body judge if those standards 
are sufficient to prevent accidents.
    In areas where the goal is efficiency, the private sector may be 
the desired choice. If equity is a concern, or safety, perhaps the 
government is more capable and more interested in serving the common 
interest.
    A government program should be discontinued if 1) its goals have 
been achieved and/or 2) if the private sector has demonstrated it can 
perform the task more efficiently. I do not necessarily hold these 
views in instances where the public safety is involved.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The primary 
mission of the NTSB is to saves lives through the prevention of 
transportation accidents. This is accomplished through the 
investigation of aviation, highway, hazardous materials and pipeline, 
marine, and railroad accidents; the determination of probable cause of 
those accidents; and the issuance of safety recommendations. Accident 
investigations may produce issues which require additional special 
study or investigation. An example was the highway special 
investigation report on bus crashworthiness which was recently adopted 
by the Board.
    7. In reference to question number six, what forces are likely to 
result in changes to his mission of this agency over the coming five 
years? Transportation is an ever-increasing industry. As the industry 
grows, the potential for accidents increases. With growth, we are 
likely to see an increase in accident investigation that would exceed 
the NTSB's current resources.
    According to research from the FAA, ICAO, and Boeing, civil 
aviation is expected to grow about four to six percent per year in the 
U.S., with even higher growth overseas. In 1996, over 650 million 
passengers boarded U.S. commercial aircraft in 1998. That is 
approximately twice our population.
    Although the number of transportation deaths has decreased in the 
past year, there are still a significant number of accidents. Highway 
fatalities comprised over 94 percent of transportation related deaths 
this year. Each year highway traffic accidents cost the nation about 
40,000 lives, five million injuries, and $137 billion in medical costs, 
lost productivity, and property damage.
    Although railroads are one of this country's safest forms of 
transportation, every year over 500 people die in grade crossing 
accidents. I understand that approximately two-thirds of all crossings 
have no train-activated warning devices. Future projections estimate 
that there will be over 600 million train miles in the year 2002.
    Additionally, over 700 deaths occur due to approximately 6,500 
recreational boating accidents each year.
    There are more than 1.6 million miles of pipeline that carry gas to 
about 60 million customers in this country. There are on average 21 
pipeline fatalities each year; however, the potential for greater loss 
exists as was demonstrated by the San Juan, Puerto Rico, accident on 
November 21, 1996.
    Not only will the Board need sufficient resources to meet the 
challenges of this transportation growth, but also it is imperative 
that the Board retain a qualified staff. New transportation technology 
is continuously introduced, and the Board must have the capability to 
hire, retain, and continuously train its technical staff.
    7. Re: question number six, what are the likely outside forces 
which may prevent the agency from accomplishing its mission? What do 
you believe to be the top three challenges facing the board/commission 
and why? As mentioned above, the Safety Board must be able to keep up 
with the technological changes and growth in the transportation 
industry. More and more demands are placed on the Board by the 
internationalization of the industry and it is important to realize 
that globalization will continue to have a significant impact on the 
Safety Board and the American travelling public.
    The first challenge facing the Safety Board is resources. The Board 
must have the adequate resources necessary to accomplish its mission.
    The second challenge of the Safety Board is to attract and retain 
qualified staff. The very integrity of the reports and recommendations 
produced by the Board hinges on the competence and expertise of its 
investigators and scientists.
    Third, the Board must be able to keep its employees trained 
properly so that they remain ahead of the curve in this constantly 
changing industry. I understand that one of Chairman Hall's goals last 
year was to fully fund training for employees across all modes. I 
believe that adequate training is critical to maintaining the technical 
qualifications of the Board's employees.
    8. Re: question six, what factors in your opinion have kept the 
board/commission from achieving its missions over the past several 
years? Although difficult in these times of budget constraints, I 
believe the Board has been successful in achieving its mission over the 
years. The acceptance rate of Board safety recommendations is 
approximately 80 percent; the acceptance rate for urgent 
recommendations is even higher, and every day we see evidence of the 
Board's accomplishments. It is because of work completed by the Board 
and its employees that child safety seats are now a requirement in all 
50 states; parents are aware of the dangers of passenger-side air bags 
pose to children; all states have raised the legal drinking age; many 
states have a pipeline one-call system, and all commercial fishing 
vessels are required to carry specific lifesaving devices, including 
liferafts, survival suits, and emergency position indicating radio 
beacons.
    9. Who are the stakeholders in the work of this agency? There are 
many obvious stakeholders of the Safety Board's work, including the 
Department of Transportation and its modal administrations, all 
segments of the transportation industry, and the United States 
Congress. Ultimately, every man, woman and child in the United States 
who relies on transportation are stakeholders in the work of the Safety 
Board. It is for the taxpayer that the Board strives to make 
transportation safer.
    10. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number 10? As a 
Board Member, it would be my responsibility to ensure that we continue 
to have the safest transportation system in the world. I, too, am a 
stakeholder in the work of the Safety Board. I too am a stakeholder in 
the work of the Safety Board. I believe that the goal of accident 
prevention is shared by the Safety Board and all of its stakeholders. 
The work of the Board must be known to be effective. It is the 
responsibility of the Board Member to make sure the public is aware of 
the Board's safety concerns. This can be accomplished by keeping 
Congress aware of the Board's actions, and by speaking to local civic 
groups, to transportation association, to airport officials, etc.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? My philosophy is that 
supervisor/employee relationships must be collaborative, cooperative 
and congenial. I have had extensive experience with both roles, and I 
know that people who have an interest and a stake in the outcome 
produce the best work. I favor open and frank discussion between 
workers at all levels. I acknowledge that the overall responsibility 
rests with the top; management should provide direction and create an 
atmosphere to avoid uncertainty. I have had no employee complaints 
brought against me.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? My working relationships with the Congress have been 
harmonious. Because of my six years as a staff member with the 
Committee on Commerce, Science, and Transportation, I have worked 
extensively with both Senators and staff on transportation issues. My 
association with Members of Congress and staff have continued as a 
result of my consulting work and as the U.S. Representative to ICAO.
    13. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. If confirmed, I 
will work closely with Congress to ensure that the Board's programs 
reflect significant public policy interests related to transportation 
safety. Although the Board is a non-regulatory agency, I believe that 
it is important to keep Congress apprised of transportation safety 
issues that are not being adequately addressed by industry or the 
appropriate regulatory agencies.
    14. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? I am 
familiar with the NTSB's reauthorization request that was transmitted 
to this Committee on April 27, 1999. I agree with the Board that the 
issues highlighted in the request will go far in helping it to 
accomplish its Congressional mandate.
    15. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. The Board is an independent agency in 
part to avoid political pressure. Although the Board's investigations 
are conducted through a party system, it retains its independence 
throughout the process. It is the Board who analyzes the work of its 
investigators, it is the Board who determines the probable cause of an 
accident, and it is the Board who issues safety recommendations to 
prevent the recurrence of similar accidents. Political pressure, no 
matter who it comes from, should not be a part of the Board's decision-
making process.

    Senator Hutchison. Thank you very much. If you would let me 
have 5 minutes, and then I will go to Senator Breaux, and then 
I will come back to me to finish, because I think this will be 
fairly brief, but as we are preparing--let me say, I think both 
of you are totally qualified, and what we want to do is keep 
the process going. That is the purpose of this hearing, to get 
your nominations moving.
    But I do want to ask you, as we are beginning to look at a 
reauthorization, to address some of the issues that NTSB is 
facing and I would like to ask both of you to respond as you 
would like to on my questions. Particularly, the House has 
passed an NTSB reauthorization and there are certain provisions 
of it--if you are familiar with what the House has passed, I 
would like to ask you to comment on it, and if you think there 
is anything that was not addressed by the House, or if you 
particularly support what the House has done.
    Mr. Goglia.
    Mr. Goglia. Although I am familiar with our re-
authorization requests, I am not intimately familiar with what 
the House has passed.
    Senator Hutchison. Are you, Ms. Carmody?
    Ms. Carmody. Well, I know one area which they passed, some 
language having to do with giving the NTSB priority in 
investigations, reinforcing, if you will, the existing 
statutory authority of the NTSB. I think there has been an 
increasing tendency over accidents recently to have to have 
parallel criminal investigations, and there has sometimes been 
confusion over who was in charge at what time, so I believe the 
House did have language in the reauthorization that addressed 
this.
    Senator Hutchison. Actually, I would like to have your 
opinion on this. It allows the Attorney General to determine if 
the cause is criminal, and if that is the determination it 
would give the FBI primacy even in aircraft investigations, and 
as a former member, I would be somewhat concerned about 
determining primacy for the FBI in an investigation rather than 
a dual role at least, where if there is--the way NTSB 
investigates, everything has to be laid out a certain way, left 
in place until you are able to pick up the part that is 
important, but where it sits is very important as well, which 
might be different from a criminal investigation.
    What would be your thought about FBI primacy in an air 
investigation that might be determined criminal?
    Mr. Goglia.
    Mr. Goglia. I have some experience in this area. I was the 
member on-scene with the Federal Express accident in Newark, 
New Jersey, and the FBI had concerns about evidence they had on 
that airplane, and I thought the methods we actually devised 
on-scene worked very well, inasmuch as we had FBI agents that 
were put on every one of the groups, and we maintained for 
their purposes a clear chain of custody. Although we operated 
under our procedures and our process, we also preserved the 
chain of custody so that in the event the investigation turned 
criminal, lawenforcement would have had control over all the 
pieces of the airplane, all the evidence, at all times until 
such time as it was determined that the investigation was not a 
criminal investigation.
    If we do that in reverse, it causes us considerable 
problems in the safety investigation, in the timeliness of the 
investigation as well because of the different priorities, and 
so I think that whatever decision the Congress makes, I think 
we need to have the NTSB controlling the scene, using our 
processes.
    If our processes and procedures need to be tweaked or 
adjusted, I think we can do that to accommodate the needs of 
the Justice Department. But there needs to be one leader at the 
scene, and we cannot have this continuing tete-a-tete back and 
forth over whose accident it is.
    Senator Hutchison. Do you have any comment on that, Ms. 
Carmody?
    Ms. Carmody. None, except it sounds sensible to me. I have 
not been involved in accident investigations, but I think that 
sounds like a reasonable approach.
    Senator Hutchison. Let me ask you another question. This 
was dealt with in the House bill, and I have certainly heard 
about it from Chairman Hall, and that is, the Coast Guard and 
the NTSB have had possibly even more conflict than the FBI on 
jurisdictional issues.
    The committee language in the House bill just says work it 
out. I would like to know your thoughts on whether that is the 
right approach, try to get the two groups to work something out 
that would be in everyone's best interest, or should it be in 
the law?
    What is your view, Mr. Goglia?
    Mr. Goglia. Well, I understand there have been discussions 
on an MOU with the Coast Guard, but I do not believe that they 
have gone anywhere.
    My own personal view is that the NTSB provides you and 
other Members of Congress and other decisionmakers valuable 
information which you can use to make decisions that shape 
transportation policy in this country. You do not get the 
benefit of an independent view without having given us the 
ability to have primacy in the investigation.
    If I was to turn the shoe around the other way and I were 
the Coast Guard, I would certainly not want somebody to come in 
and review my operation that was potentially going to air my 
dirty laundry out all around the country. So until we get the 
primacy that enables us to give you the unbiased facts of the 
accident so you and other decisionmakers can make the correct 
decisions, we are always going to be at a disadvantage.
    Senator Hutchison. Ms. Carmody.
    Ms. Carmody. I was frankly baffled when I heard of this 
issue, because I did not understand why the Coast Guard had a 
different arrangement than other agencies. It seems to me it 
would be easier if it were spelled out in more specifics.
    Senator Hutchison. Well, I think clearly we need to have 
input again from the Coast Guard and from the NTSB to--I would 
like for it to be worked out without law, just because I know 
that sometimes in investigations you just cannot follow a 
procedure perfectly when you are dealing with new things, with 
new areas, with--even sometimes one side has the resources and 
the other side needs access to something different.
    You just cannot predict what you are going to need in an 
accident investigation, and I do not want you to have to go out 
on a Coast Guard cutter and start looking at a manual of the 
law. I would rather have you be able to do it in a way that 
would make sense between the two agencies, but it has bubbled 
up a couple of times, so we will look at that as we go toward 
reauthorization.
    With that, Senator Breaux.
    Senator Breaux. Well, you have raised a very interesting 
point. I sort of tend to believe we need some clear direction 
of who is in charge. You cannot have the FBI and the Coast 
Guard and the NTSB at an accident site deciding, in my opinion, 
onsite who is going to be in charge. It is too late.
    And in a terribly unfortunate situation, such as an 
accident where a plane goes down, generally there is a great 
deal of chaos, and that is not the right time to sit down and 
decide who is in charge. I mean, it should be clearly spelled 
out, and I am not really satisfied, Madam Chair, to tell the 
three agencies to go work it out.
    I mean, anybody who has been around Washington long enough 
knows the various agencies are all going to be trying to get 
their inputs, and they want to be in charge. The Coast Guard 
wants to be in charge, the NTSB wants to be in charge, the FBI, 
who thinks there is something wrong, wants to be in charge. 
Everybody is going to sit around arguing about who is in 
charge. What happens when that occurs nobody is in charge, and 
we do not want to wait until that happens.
    I mean, we have already seen some problems in this, and I 
think maybe Congress does have to say, all right, NTSB is in 
charge, and then if other things come to light, bring in other 
prospective agencies on this, but I really do think that we 
ought to take a look at doing more than just saying, ``work it 
out.'' We are not going to get it worked out. Anybody who has 
been around Washington more than five years knows that.
    Do you disagree with that?
    Mr. Goglia. I agree with that 100 percent.
    Senator Breaux. They are going to fight over it. I have 
seen them fight.
    Senator Hutchison. Your point is well-taken. Where the 
problem comes is, there are certain assets that NTSB has. In 
investigating an accident they have the ability to take the 
flight data recorder and bring it in, and they have got the 
equipment to read it out, but they do not have the ability to 
go out into the ocean and hunt for parts, and so if we go that 
route, which I think makes sense, we are also going to have to 
look at some budgetary authority, because the Coast Guard might 
not have the budget, or the Navy might not have the budget for 
their divers.
    There has to be some ability for the one in charge to also 
be able to pay for the services rather than one agent be in 
charge and the other one be providing resources from their 
budgets that they do not have, and so it is complicated, but I 
think your point is well-taken. I think it needs to----
    Senator Breaux. Well, I will just suggest the budgetary 
concerns, and that is always very important about who pays for 
what. But you have to have someone on the scene who is in 
charge, and then you have to be able to utilize the equipment 
and the manpower, and the vessels and everything else that 
needs to be brought in. But somebody has to say that he is in 
charge of an investigation and to bring in everybody else, and 
we ought to be able to solve this. It is not that great a 
problem that people with good intent cannot come together, and 
I would just hope that when the bill comes up over here, that 
we do more than just say work it out, because it is not going 
to get worked out.
    Thank you.
    Senator Hutchison. Did you have any other questions?
    Senator Breaux. No.
    Senator Hutchison. If not, then there are a couple of other 
things I just wanted to ask for my information. Mr. Goglia, the 
board has indicated that it plans to hold a hearing on safety 
implications of NAFTA, and I wanted to ask you if that has been 
done?
    Mr. Goglia. We have held several hearings around the 
country on truck safety issues. The NAFTA hearing was held 
October 20-22, 1999, in Los Angeles, CA.
    Senator Hutchison. Have there been any safety 
recommendations that have come from those hearings?
    Mr. Goglia. Not yet.
    Senator Hutchison. Do you think there will be any?
    Mr. Goglia. I suspect there will be. It is a little 
premature for me to say. We need to have three Board members to 
agree, so it is a little premature to say the outcome, but I 
believe we will have some recommendations.
    Senator Hutchison. I think this is an important area for 
NTSB to address. As we are beginning to make the decisions on 
truck entry from Mexico, I think we need to know what the 
problems are and if there are recommendations for safety that 
would protect people on our highways all over our country, and 
it is something I have looked at, and I think the Department of 
Transportation has been correct in making sure that we do not 
leap before we look and that we do not allow a lot of trucks 
that do not meet our standards on our highways, but I would be 
interested in NTSB's recommendations before those final 
decisions are made.
    It is my understanding, Mr. Carmody, that there have been 
recruitment problems for accident investigators, getting 
qualified people. Are you familiar with that kind of problem, 
and if so, would you tell us what the problems are, and how you 
would address that?
    Ms. Carmody. We are not sure, did you invite me to answer 
that, Senator?
    Senator Hutchison. I was actually talking to Mr. Goglia as 
a member of the Board, but if you have comments, if you are 
aware of this I would be happy for you to jump in. I was 
addressing it to Mr. Goglia.
    Mr. Goglia. That has been an ongoing problem, Senator. Our 
ability to attract qualified people in the ranks of 
investigators has grown in the past. As the economy gets strong 
we cannot compete with the commercial interests and what the 
private sector is offering as a compensation package. Anyone 
who knows the workload of the NTSB, knows you would have to 
take that into consideration when you signed on, because the 
average work week is something like 62 hours, and most of it, 
that extra over 40 hours is not adequately compensated, so it 
is a labor of love on the side of our investigators.
    So the really experienced people we are not drawing. We are 
drawing much younger people, and we have a turnover. As soon as 
they get the qualifications, industry will take them away from 
us, and frankly I do not blame them for leaving.
    Senator Hutchison. Do you think higher GS levels, or do you 
think overtime is more the corrective?
    Mr. Goglia. We need to have a basic compensation level that 
equals what industry is paying, and we need to find a way to 
compensate them if not fully, at least more than the token 
compensation we give them for the extra hours they put in.
    Senator Hutchison. Did you have a comment, Ms. Carmody, on 
that?
    Ms. Carmody. Just that I read the Rand report, and I know 
this was a concern that was raised there in terms of the number 
of hours the staff work and the difficulty in recruiting them. 
I think it is probably not unique to the NTSB. I think some of 
the other Government agencies have had the same problems with 
recruiting and retaining people.
    I recall there was a provision in the NTSB reauthorization 
which would provide early retirement for some of the 
investigative staff, which I believe the Board thought would be 
an additional lure to get people to sign on.
    Senator Hutchison. Mr. Goglia, you have aviation in your 
background, but you have also participated in a number of the 
railroad issues. I wanted to ask you if you think the public 
education program such as Operation Lifesaver, which was 
actually started when I was on the NTSB--we worked with the 
National Safety Association to former Operation Lifesaver--if 
you think that Operation Lifesaver and the Department of 
Transportation Share the Road education campaigns are having an 
impact. Do you sense that, or do you see it in the accident 
reports?
    Mr. Goglia. Not in accident reports, but I see it in my 
traveling, in my discussions in the real world that it 
definitely is having an impact. Operation Lifesaver is a 
wonderful program.
    I chaired, or I ran the on-scene investigation at Fox River 
Grove, which was the grade crossing accident with the school 
bus, a very painful accident, to see those children like that. 
I think anything that we can do to alleviate grade crossing 
issues in this country is money well-spent.
    I applaud the work of the Railroad Administrator. She has 
worked in cooperation with the industry. I believe they have 
closed approximately 20 percent of the grade crossings in this 
country. We need to do more.
    So given the constraints on the resources, I think all of 
those programs are worthwhile, and if we could find more 
resources I would love to see this put in. There are some 600 
fatalities every year at grade crossings, and every single one 
of them is preventable.
    Senator Hutchison. I agree with your assessment of Jolene 
Molitoris. As the Federal Rail Administrator she has been so 
tough and active, and I think she has done a terrific job, and 
the ads that are being put forward by Operation Lifesaver, 
which is now an ongoing entity, have been totally supported by 
Jolene Molitoris, and they are tough, and I am sure that any 
teenager or person who sees those ads is impressed and will 
remember, and I certainly hope that it is successful.
    I would like to ask Ms. Carmody, because this is an area 
where you have had experience with FAA and NTSB having been on 
that side and on the Commerce Committee side, how do you see 
the agency's actions on recommendations? Do you think the NTSB 
and FAA have a healthy working relationship? Do you think the 
FAA is doing as much as it should from the NTSB 
recommendations? Are they acting as quickly as they should? 
What is your assessment of that relationship?
    Ms. Carmody. I think overall the FAA is doing a very good 
job. I am looking at the level of recommendations they accept 
from the board, and I think it is 83 percent, so I think on 
balance they have done a good job. I think Jane Garvey has done 
a remarkable job in her tenure there.
    Senator Hutchison. How do you feel about the NTSB's 
recommendations? Do you think they have been about right on, or 
do you think they do too much or too little?
    Ms. Carmody. No, I do not think they do too much. I was 
going to say I think there are always areas in which it would 
be nice if FAA were more aggressive, or acted a little more 
quickly. Runway incursions is an obvious example. That has been 
a subject on the ``Most Wanted'' list for quite a while. I 
think the FAA is moving on it, but it seems that the progress 
has been very limited.
    The AMASS System has had some delays, and I think there is 
a possibility to be frustrated over it sometimes, the pace of 
the FAA, but I think on balance--as I said in my opening 
statement there is a tension between the two, and that is to be 
expected. I think it is probably healthy. I think it is 
important that the two agencies continue to cooperate, but I 
believe there is always going to be a little bit of a 
difference of opinion between them.
    Senator Hutchison. Let me ask both of you how you think the 
MD-80 problems were addressed by the FAA and NTSB? Do you think 
that the right thing was done at the right time after the 
Alaska Air----
    Mr. Goglia. You are talking about the jackscrew problem. I 
think the NTSB and the FAA both moved very quickly to deal with 
that issue, but they also have to give the industry credit 
themselves. I know from my contacts with the industry they did 
not wait for either one of us to move. As it became known, the 
problems became known, the industry moved before us, and that 
is exactly the way the system should work.
    Ms. Carmody. I was equally impressed. I was from the 
outside looking in, since I am not on the Board, of course, but 
I was impressed with the speed with which the FAA and the 
industry seemed to take this up and act on it.
    Senator Hutchison. I read an article in the Washington 
Times that said those parts were made in China as part of an 
agreement that McDonnell-Douglas had made when they were 
selling in the eighties to China, that they agreed that they 
would manufacture certain parts there. I would like to ask you 
if a) you believe that that is true and, if so, is there 
anything that needs to be done that would require more 
inspections of foreign-made products, or is this something that 
just could not be avoided, or is there something we ought to be 
looking at if that is the case?
    Mr. Goglia. Well, first off, Senator, I am not aware of the 
fact that this particular part was made in China, so it may not 
have been, but aircraft parts in general--and I am from 
Massachusetts, so that is p-a-r-t-s. We talk a little funny. 
But aircraft parts in general are held to pretty high 
standards.
    Senator Hutchison. You certainly do, as far as I am 
concerned.
    [Laughter.]
    Mr. Goglia. They are held to a high standard, and the 
specifications in this example are thread, pitch, and hardness 
of material, and they are well spelled out, and the inspection 
process is pretty well-defined.
    Senator Hutchison. Is it defined before it goes into an 
aircraft? Is there anything special about a foreign-made part?
    Mr. Goglia. If the system works as designed, the pieces, 
there is a specification that is sent to wherever it is 
manufactured, this country or outside, and the part is made to 
those specifications, and then there is a receiving inspection 
that is designed to assure that the part meets the 
specification.
    Now, does that happen every time? The answer is no. We have 
examples in the Delta Airlines accident in Pensacola, Florida, 
where a fan hub came apart that was manufactured by Volvo, and 
that part had--although it had all the rights stamps, it was 
clearly the inspection process failed, so yes, sometimes things 
fail and fall through the cracks, but you cannot have 100 
percent inspection for every piece. You have to build it in on 
the production side, and failures in that area are pretty rare.
    Senator Hutchison. And the FAA does spot-checking, is that 
the process?
    Mr. Goglia. They check the process. Quite frankly, Senator, 
the FAA does not have the resources to keep up with industry 
today. I mean, we have 3,000-some-odd aviation safety 
inspectors at the FAA and they just cannot keep up with it. The 
fleet is growing rapidly. Industry is just moving so quickly. 
Government is not structured in a way to perform the 
inspections, so they really have to ensure that the process 
that is in place at either the manufacturing level or the 
airline level is proper.
    Senator Hutchison. Ms. Carmody, do you think that we need 
to look at the FAA's processes and their number of inspectors? 
Is that something that we should address down the road, or very 
quickly?
    I know that they cannot--they will never be able to inspect 
every single part that goes onto every single airplane. There 
would be no way. But is it adequate?
    Ms. Carmody. I think that is something this Committee has 
looked at at various times through the years. Inspectors are 
always the subject of interest and concern. You are right, 
there will never be enough to inspect everything, but there has 
to be an adequate number to oversee various processes that are 
ongoing at the FAA.
    In terms of what the Board is doing, I believe there is a 
special study now that NTSB is conducting of FAA oversight of 
repair stations, so-called part 145. I am not sure what the 
timeframe on that is, but it is an ongoing study. It is part of 
looking at the oversight capability of the FAA, but I do think 
the number of inspectors and the subject of inspectors should 
be of continuing interest to this committee and the NTSB.
    Senator Hutchison. Do you have an opinion, Mr. Goglia, of 
whether it is sufficient the way it is done now, or should we 
look at expanding the number of inspectors?
    Mr. Goglia. The FAA needs additional resources to provide 
the oversight. The industry is expanding rapidly. The number of 
inspectors are overworked. In some areas of the country, such 
as Miami and the West Coast, there is just an explosion of 
aviation providers, and there is certainly not enough 
inspectors to go around, and visiting the repair station once a 
year quite frankly does not cut it.
    Senator Hutchison. Well, I would be interested in NTSB's 
findings on the study they are doing now, but perhaps even 
expanding that to determine if we really need to address FAA's 
resources in light of what you have said about the exploding 
number of providers. I know we are now starting to use in my 
State, starting to use smaller jets for commercial aviation. 
The 50 passenger jets that would give intrastate service in 
Texas, and we really have not had very many of those, at least 
in Texas, heretofore, but now I think they are going to be more 
and more popular around the country.
    Right now, they are made in Brazil, so I think we are going 
to want to make sure that we have adequate safety of those 
coming online, which is just one example of what you have said. 
We have got more types of systems coming in.
    So I would be interested in NTSB doing a study, and 
certainly FAA does report to us, but I think having the NTSB as 
an outside source would be very important, so you might look at 
that as you enter your service on the Board, and as you 
continue yours.
    Well, I would just like to say, that is the end of my 
questions. If you have any other comments you would like to 
make, I would be happy to put those in the record at this time 
and, if not, I think you are certainly well-qualified. I will 
look forward to working with you and we will at the earliest 
possible moment have a full committee hearing and vote your 
nominations out and see if we can get you confirmed on an 
expedited basis.
    Thank you very much, and this hearing is adjourned.
    [Whereupon, at 10:10 a.m., the committee adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Madam Chairwoman. First of all, I'd like to thank you for your 
leadership in convening this hearing to consider these nominations.
    The nominees before us today, Carol Carmody and John Goglia, will 
play a vital role in shaping our nation's transportation policy if 
confirmed as Members of the National Transportation Safety Board 
(NTSB). The NTSB is an independent agency charged with promoting safety 
in transportation throughout the nation. They conduct accident 
investigations, make recommendations for safety improvements based on 
their investigations, do safety studies, and evaluate the effectiveness 
of government agencies' transportation safety programs. The 
professionals before us are veterans of transportation practice and 
policy--they are clearly well qualified for the positions they have 
been nominated for. I look forward to hearing from them.
    John Goglia has served on the NTSB since 1995. In addition to his 
experience at the Board, he is considered an expert on human factors in 
the mechanic's workplace. He gained much of this experience during his 
employment at Logan Airport with US Airways beginning in 1966 and 
ending in 1995 when he was confirmed to his present position at the 
NTSB. His 32 years of aviation experience coupled with the fact that he 
is an internationally recognized expert in aviation maintenance and 
aircraft operations make him an ideal nominee for reappointment to the 
Board.
    Carol Carmody is a veteran of the Hill and the Administration. I am 
pleased to see Carol back before the Committee, although on the other 
side of the dias this time. Her six years of experience on the Commerce 
Committee staff working on aviation issues and her time at the Federal 
Aviation Administration make her an ideal candidate for the NTSB. In 
addition to her federal experience, for the last four years, she has 
served as the U.S. Representative at the International Civil Aviation 
Organization (ICAO), the United Nations body responsible for civil 
aviation standards. I have no doubts that, if confirmed, she would 
excel in her role as a member of the NTSB given her experiences in the 
past.
    To both of the nominees here today, thank you for your attendance 
and I look forward to working with you in the future.
                                 ______
                                 
               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    I'm pleased to welcome Mr. Goglia here today for his renomination 
to the NTSB. Mr. Goglia was born and raised in Boston and I am pleased 
to have such an outstanding citizen of my State of Massachusetts serve 
as a member of the NTSB. I encourage my colleagues to support his 
speedy confirmation.
    Mr. Goglia has been a member of the NTSB since 1995 and is uniquely 
qualified to serve on the Board, as he is an internationally recognized 
expert in aviation maintenance with over thirty years of aviation 
experience.
    Before he began his service on the NTSB, he was an aviation 
mechanic with USAir at Logan Airport. He was the recipient of the 1994/
Industry Aviation Mechanic of the Year Award. He has also served on the 
International Association of Machinists and Aerospace Workers' (IAM) 
Accident Investigation Team and for over 21 years he served as the 
IAM's Flight Safety Representative.
    Mr. Goglia's vast experience has permitted him to bring a valuable 
perspective to the Board, where he has made a number of valuable 
contributions since his confirmation in 1995. He has focused the NTSB's 
attention on the significant role maintenance plays in transportation 
safety. Related to that, he has advocated that the Board focus on the 
importance human factors play in transportation safety. Mr. Goglia's 
background has also made him uniquely qualified to address the problems 
that maintenance worker shortages in the aviation industry cause.
    I think Mr. Goglia is exceptionally well qualified to continue his 
service on the Board, and would encourage my colleagues to support his 
confirmation.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                            Carol J. Carmody
    Question 1. As it has been noted recently in commentary on the 
January 31, 2000 Alaskan Airlines Flight 261 crash off the coast of 
California, in which 88 people died, accident investigations are 
becoming increasingly complicated. This is due to many factors, but 
especially to the fact that we have been able to eliminate the ``easy'' 
accidents. In light of this, do you believe that the NTSB has the tools 
available to meet the challenges of more intricate investigations?
    Answer. This problem was mentioned in the Rand Report, entitled 
Safety in the Skies, which was released late last year. The need for 
increased resources is reflected in the NTSB FY 2001 budget request for 
an additional 25 technical, investigative and support positions to 
address the increasingly complex accidents the Board is encountering. 
Of course it may be impossible for the NTSB to ever have the tools 
needed in-house for all investigations, so the Board must continue to 
expand its capabilities through the party system and the use of special 
technical experts.
    Question 2. There has been some comment lately, including that by 
the Rand Commission, that the NTSB resources are stretched a little 
thin for comfort and that it is only the professionalism of the staff 
which is upholding the impeccable standards of the NTSB. What are your 
views on the Rand Report?
    Answer. I believe the Rand Report provided some valuable insights 
into the NTSB's mission and work. I think the recommendation that the 
Board assess laboratories, universities and independent corporate 
resources to identify ways to augment NTSB expertise is an excellent 
idea. I would be interested in exploring the idea of forming 
independent review and assessment teams, as suggested in the Report.
    Question 3. One of the management issues currently before the 
Federal Aviation Administration is instituting a cost accounting 
system--determining what services cost as well as ensuring proper 
stewardship of assets. This is an issue other agencies, including the 
NTSB, also face. Do you think that this will be difficult given the 
extemporaneous nature of accident response teams? What are some ways to 
strengthen this accountability?
    Answer. I understand the NTSB has just recently adopted an 
accounting system which identifies all non-salary costs by category and 
investigation. Payroll is handled by the FAA personnel system, so 
salary costs are not retrievable in the same way.
    The Rand Report recommended that NTSB establish its own complete 
system so that all costs could be integrated and tracked by 
investigation or project. This recommendation sounds reasonable and 
consistent with good management practices, but I would like to have 
some experience with the current NTSB account information before I 
reach a conclusion about implementing a new system. Clearly managers 
must be able to track what they are spending to ensure that resources 
are used wisely. Budgets for a particular project or investigation 
should be established and costs should be reviewed and measured against 
the plan on periodic basis. Managers in charge of projects or 
investigations should be responsible for their specific budgets.
    Question 4. In October of 1999, the NTSB completed its 
investigation into the tragic sinking of the Morning Dew, a 34-foot 
recreational sailing vessel, which struck a jetty outside of Charleston 
Harbor in December 1997, resulting in the deaths of all four 
passengers. The NTSB concluded that, while the most probable cause of 
the accident was operator error, the substandard performance of the 
Coast Guard Group Charleston in initiating a search and rescue 
contributed to the loss of life. The NTSB has stated that current rules 
requiring coordination with the Coast Guard in investigating such 
incidents result in duplication of effort and may compromise the 
independence of NTSB investigations. Consequently, the NTSB Chairman 
has recommended that clear rules be established, governing when the 
NTSB should be given the lead in such investigations. Coast Guard, 
however, does have significant experience in investigating marine 
accidents. I understand NTSB and the Coast Guard are trying to work 
this issue out.
    Based on your knowledge of the relative expertise of NTSB and Coast 
Guard, is coordination the best way to go, or should NTSB be given the 
lead in marine accident investigations? Are there particular 
circumstances under which NTSB primacy may be warranted?
    Answer. The NTSB reauthorization requested that this issue be 
clarified by giving NTSB the same priority in marine accident 
investigations that it has in all other modes. The NTSB has argued that 
in marine accidents delays and confusion often result from the 
uncertainty over which agency has priority and which rules of 
investigation apply. Under the current system each modal administration 
retains authority to investigate accidents and to enforce penalties as 
needed, and this practice has been successful for 30 years. To date, I 
understand that the Coast Guard and the NTSB have not made progress in 
``working it out,'' so I think legislation would be useful to define 
roles and remove uncertainty.
    Question 5. As part of a series of reforms, the Board, last year, 
changed its procedures for the assignment of Members to accident 
investigations, limiting the time each Member assigned to a site can 
remain on site. Do you support those changes?
    Answer. If I am confirmed as a new Board member, I expect to follow 
all the Board orders and procedures. I have read Order 6A dealing with 
the responsibilities of Members at accident sites and it seems clear 
and reasonable to me. I have no experience at accident sites on which 
to form an alternative opinion.
    Question 6. Does the NTSB have the resources to keep up with new 
technology? Is there a systematic approach for this in place? If not, 
would you advocate one?
    Answer. The NTSB seems to have done a remarkable job of keeping up 
with technologies, but frequently it is during the course of an 
accident investigation. The Rand Report says that the NTSB approach to 
training--which familiarizes staff with technologies--is haphazard. The 
report also recommends a staffing increase of about 12 percent over FY 
1999 levels, and suggests personnel exchanges and cross training as 
some ways to improve the situation. I expect the NTSB is reviewing the 
recommendations. I believe the goal of maintaining a well trained, 
current staff is extremely important and I would expect to support 
strategies or approaches that would produce this.
    Question 7. The media crush following an accident can be 
overwhelming. Except for accidents involving criminal conduct, the NTSB 
is the primary investigative voice during an accident. While ``talking 
heads'' espouse their views on what the cause is immediately following 
a crash, the NTSB has to be more judicious.
    (a) How do you balance the need to provide information to the media 
with the need to ensure that investigations are not impeded or 
compromised?
    Answer. I think the media must be provided current factual 
information in as timely a fashion as possible. It is impossible to put 
a stop to speculation by others, but the Board can do its job by 
providing information whenever it is reasonable to do so. From my 
perspective, the NTSB has handled the press very successfully following 
the recent Alaskan Air crash.
    (b) What are some of the other issues surrounding the media which 
you feel the NTSB should address?
    Answer. The access of media to an accident scene is an issue where 
treatment differs with the situation. Questions of safety and 
sensitivity are involved and the Member on the scene, if any, will make 
the determination as to access. The Board has also committed to 
briefing family members before any national briefing so those calls 
have to be coordinated before any press briefing.
    Involved parties, such as airlines or aircraft manufacturers, run 
some risks if they do not respond to press inquiries themselves right 
away--and the public expects and deserves some kind of response and 
available information directly from them. On the other hand, the NTSB 
wants to be, and to some extent must be, a gatekeeper for accident 
information.
    Several Members of the Commerce Committee were copied on an 
exchange of letters between the Safety Board and American Airlines on 
this very issue after the Little Rock accident.
    (c) What do you think the appropriate balance is and how would you 
propose to work together with the parties (American, Boeing) to prevent 
that kind of disconnect from happening again?
    Answer. Parties to accident investigations sign agreements 
governing how they will conduct themselves during the accident 
investigation. The Board is properly concerned about parties relating 
information about the accident. After the Little Rock accident, the 
Board and the ATA worked together on a Memorandum of Understanding 
which spells out new procedures for press coverage after accidents. It 
involves daily coordination between airlines and NTSB; and identifies 
specific items on which an airline may comment--such as the type of 
aircraft. This procedure seemed to work well according to parties 
involved in the recent Alaskan Air accident.
    Question 8. The NTSB uses a ``party system'' to investigate 
accidents, with private sector expertise as well as that of other 
agencies to supplement the NTSB's own personnel. Some have questioned 
this system on grounds that the parties, particularly the airlines and 
the manufacturers, may have a conflict of interest. Others have said 
that the process should be opened even further, so that families of 
victims could also participate in the investigation.
    (a) How would you respond to these criticisms?
    Answer. The party system seems to have worked well for the NTSB 
because it allows the Board to expand its resources and use experts in 
particular areas. I believe there are enough parties to an accident 
that potential conflicts may be minimized. Part of the management of 
the process by the Board must be to assure that there is no bias or 
favoritism. I am aware that some have suggested that families of 
victims should be allowed to participate in accident investigations. I 
do not believe this is a good idea. Current NTSB rules require that 
party representatives possess specific expertise. Other difficulties 
could arise in attempting to select appropriate family representatives 
for participation. I hope the families' concerns can be addressed by 
the Family Assistance Program, which assures that members are briefed 
regularly on developments and made aware in advance of press 
conferences.
    (b) Do you feel that the party system is still a feasible approach 
to accident investigating?
    Answer. Yes I do. I believe the Rand Report made some valuable 
suggestions about ways to expand the party system. The report 
recommended that the Board survey the capabilities of independent 
resources--labs, universities, etc.--to see what independent expertise 
is available. The Board could then contract as necessary with these 
independent parties to assist in investigations.
    (c) Are there possible gaps in the integrity of investigations that 
warrant a shift away from the party system?
    Answer. From my perspective outside the NTSB, I have not read or 
heard anything which would justify a shift away from the party system. 
The Rand Report concludes that the system has worked well for the NTSB. 
If a system has produced solid, useful work for many years, I see no 
compelling reason to change it.
    Question 9. The relationship between the NTSB and the FBI and the 
Department of Justice is both delicate and critical. High profile 
accidents that may involve criminal conduct raise some practical 
questions and potential conflicts about lines of authority between the 
agencies.
    (a) Are there ways the NTSB could improve the process of 
establishing clear lines of authority in accidents where criminal 
activity is suspected?
    Answer. The NTSB reauthorization request sought clarification of 
NTSB's primacy in all accident investigations, whether accidental or 
otherwise. Such leadership would include coordination with other 
agencies, and involvement of law enforcement agencies if criminal 
activity were suspected. If the investigation yields evidence of 
criminal activity, the Board can then turn the responsibility over to 
the appropriate law enforcement agency. This policy is in accordance 
with both NTSB procedures, and ICAO's Annex 13.
    (b) In your view how much evidence of criminal activity does there 
need to be before the NTSB should give primary authority to law 
enforcement?
    Answer. I would want strong or compelling evidence that the event 
was not accidental.
    Question 10. NTSB makes recommendations for the Department of 
Transportation and its modal agencies. These recommendations are not 
binding but do require some type of response from the modal agencies.
    Does this process work well in promoting safety or are there ways 
that you think we could improve the accountability of the agencies?
    Answer. I believe the current process works well. Overall, 82% of 
all NTSB recommendations are implemented by the modal administrations. 
The Board uses the Top Ten list to keep pressure on agencies. Board 
Members are able to advocate safety improvements through public 
appearances and information. The Board can keep any unaccepted 
recommendations before the Congress and the public so those agencies 
may be encouraged to act.
    Question 11. There has been some comment lately, including in the 
recent Rand Commission report, that the NTSB's funding and staff 
resources are inadequate to fulfill its mandate.
    (a) Do you agree with that assessment?
    Answer. I accept the Rand Report's findings that NTSB staff works 
in excess of 50 hours a week normally, and over 60 hours a week during 
accident investigations. I also note that the NTSB FY 2001 budget 
request seeks an increase of 25 investigative and support positions. 
That suggests to me that resources are strained.
    (b) If so, what would you propose to do about it?
    Answer. I hope the appropriators will support the budget request. I 
think NTSB should continue to seek ways to leverage its resources 
through the party system and possibly through use of outside experts, 
as recommended in the Rand Report.
    Question 12. The recent Alaskan Airlines crash off the coast of 
California highlighted how complex accident investigations have become. 
There is a sense that, in terms of safety improvements, the aviation 
industry has already made all of the easy or obvious improvements, and 
that we are left with the more rare and complex engineering, 
manufacturing and human factors problems.
    (a) Does the NTSB have all of the tools available to meet the 
challenges of more intricate investigations?
    Answer. The NTSB is seeking an increase of 25 technical, 
investigative and support position in the FY 2001 budget, and must 
continue to expand its capabilities through the party system and the 
use of special technical experts.
    (b) Does the NTSB have the resources to keep up with new 
technology?
    Answer. I found that the Rand Report provided some valuable 
insights into the Board's mission and work. I think the recommendation 
that the Board assess laboratories, universities and independent 
corporate resources to identify ways to augment NTSB expertise is an 
excellent idea. I would be interested in exploring the idea of forming 
independent review and assessment teams, as suggested in the Report.
    (c) Is there a systematic approach for staying abreast of new 
technology in place at the NTSB? If not, would you advocate one?
    Answer. From my perspective outside the NTSB, it appears that the 
NTSB has managed to keep pace with technologies at least in the course 
of accident; however, I noted that the Rand Report says that the NTSB 
approach to training--which familiarizes staff with new technologies--
is haphazard. Personnel exchanges and cross training are recommended as 
some ways to improve the situation. I expect the NTSB is reviewing the 
recommendations. I believe the goal of maintaining a well trained, 
current staff is extremely important and I would expect to support 
strategies or approaches that would produce this.
    Question 13. In 1996, Congress gave the NTSB the authority to 
provide assistance to families of aviation accident victims. The 
specific need for one central clearinghouse for families was made clear 
by the unprecedented problems surrounding the crash of TWA flight 800 
in July 1996 off the coast of Long Island. Since then questions have 
been raised about whether an investigative agency such as the NTSB--
with primary responsibility for figuring out the reasons for a crash--
lends itself very well or easily to a family assistance program.
    (a) Do you believe that the NTSB should continue to serve as the 
family assistance coordinator, or should some other agency, public or 
private, be given those responsibilities?
    Answer. At this stage, I understand the NTSB has established a 
Family Affairs Office, separated it from the other parts of the NTSB, 
and trained the experts. The staff has responded on more than 20 
accidents and from all reports has functioned exceptionally 
effectively. I don't see the value in removing a successful program and 
transferring it to another agency that would have to start from zero to 
do what the Board has done over the last few years.
    (b) Would a shift of family assistance to another agency free up 
limited NTSB resources for accident investigations and safety work?
    Answer. No. I doubt that the resources for family assistance would 
be appropriated for NTSB if the function were removed to another 
agency. I am also told by the Board that removal of the office might 
require more time from investigators because the other department would 
not be allowed to sit in accident briefings, which the NTSB family 
assistance staff do. Therefore, investigators would have to brief a 
separate agency on the developments, coordinate press releases, etc. 
All these things are now handled fairly easily within the NTSB.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                            Carol J. Carmody
    Question 1. The governing statute for the National Transportation 
Safety Board is silent as to the duties and responsibilities of Board 
Members although the law does address membership qualification 
requirements. Please describe in your own words what you believe the 
two most important responsibilities and duties of a Board member are.
    Answer. A Member of the Safety Board has numerous important 
responsibilities to the American public, the Congress, and the 
transportation industry. I believe one of the most important 
responsibilities of a Board Member is to draw on his or her individual 
experience, knowledge and expertise to make independent decisions 
concerning various Board actions to promote transportation safety and 
to ensure public confidence. To do that, a Member must consider the 
facts and analysis developed through accident investigations and safety 
studies, and exercise his or her own judgment when deciding on a Board 
action, reviewing a party submission, or rendering an opinion or order.
    I think it is also important for a Board Member to be a proactive 
advocate for transportation safety. The Board has no regulatory 
authority to ensure that its safety recommendations are implemented; 
therefore, it is imperative that Board Members are advocates in 
promoting the work of the NTSB and in persuading the recipients of its 
recommendations and others who influence the implementation of safety 
recommendations.
    Question 2. After concerns were raised last year about excessive 
Board Member travel, Chairman Hall instituted procedures and budgets 
governing non-accident travel. What do you believe is a justifiable 
need for foreign travel, and how should the travel budget be developed 
and maintained?
    Answer. As a long time federal employee, and also a political 
appointee, I am sensitive to concerns about foreign travel. I believe 
any travel--foreign or domestic--should have a bearing on the work of 
the Board. It should contribute to, or improve the understanding of a 
member in developing recommendations for improved safety, and/or it 
should promote the transportation safety mandate of the Board. I know 
from my time at ICAO that the United States no longer has a corner on 
the market of new technology or ideas, and it may be important for 
Board members to learn how other systems handle safety issues. It is 
also useful for a Board member to promote the mission of the NTSB, or 
to explain the role of the NTSB to others. For example, Chairman Hall 
attended the ICAO Assembly in Montreal in 1998. He talked to a number 
of other delegations and succeeded in an Assembly Resolution, which 
urged all states to implement family assistance programs for the 
families of accident victims. Without his interest and participation, 
this Resolution would not have passed.
    The Chairman has authority to develop the budget and I would 
anticipate that would be done after consultation with the Members and 
review of their requirements. Since the Chairman of the Board has 
executive authority over the budget, I believe there should be close 
coordination with the Chairman on travel plans.
    Question 3. What guidelines covered your travel while U.S. 
Ambassador to the International Civil Aviation Organization (ICAO)?
    Answer. I was governed by the rules of the State Department 
contained in the Foreign Affairs Manual--specifically 6FAM-100. Travel 
must promote the interest of the United States and contribute to the 
mission.
    Question 4. While at ICAO, did any companies or organizations pay 
for your travel and were any of the companies or organization parties 
to ICAO accident inquiries? If the answer is yes, what was the value of 
the paid travel and are you required to file reports on the accepted 
travel and, if so, to whom are the reports filed?
    Answer. In 1994, the International Aviation Women's Association 
(IAWA) paid for my travel to Washington for a speech to their annual 
meeting. The IAWA has no involvement with ICAO. The value of the paid 
travel was $340. Clearance was obtained in advance from the Assistant 
Secretary of State for International Organizations, and I reported the 
trip and reimbursement on my Public Disclosure Form, SF 278 for that 
year. All other trips were paid by the US government.
    Question 5. Service on the NTSB requires a full-time commitment. 
Yet NTSB submitted travel data indicate that in the past five years 
Board Members spent a substantial portion of their time away from 
Washington, D.C. on non-accident-related travel. What are your views 
regarding the necessity for members to spend time at the headquarters?
    Answer. I believe that my doing a good job will require that I 
spend most of my time at headquarters and I expect to do so.
    Question 6. What are the most significant safety accomplishments 
you achieved during the years you served at ICAO?
    Answer. My most significant accomplishment was the creation and 
promotion of the ICAO safety oversight program. When I arrived at ICAO 
in 1994, many countries were in an uproar over the FAA's safety 
assessment program of foreign civil aviation authorities. The United 
States and the United Kingdom suggested that ICAO undertake a program 
to assess whether its member states were living up to ICAO standards. 
Resistance to the program was widespread; difficulties were numerous. 
The result after four years of effort was the adoption by the ICAO 
Assembly in 1998 of a universal, mandatory safety assessment program.
    Like most organizations, ICAO has a shortage of funds for its many 
activities. For three consecutive years I was successful in persuading 
the ICAO Council to reprogram funds from some non-critical programs to 
the Controlled Flight into Terrain (CFIT) program.
    I believe all my work at ICAO has increased the safety of the 
traveling public through the development, promulgation and publicizing 
of international standards to promote safety and uniformity in 
international civil aviation.
    Question 7. The NTSB has a web site which lists speeches given by 
Board Members. If confirmed, will you list all speeches and 
presentations before outside groups on the site?
    Answer. I usually speak from notes and not from a prepared text. 
Certainly if I have a text I would make it available to the web site.
    Question 8. Under the ICAO accident investigation rules, all 
nations who are parties to an investigation are provided a draft copy 
of the accident report for comment. Any substantive comments made which 
are not agreed to by the investigating agency are appended to the final 
report of the accident report. The NTSB followed a similar procedure in 
the ATR Roselawn investigation. Do you believe the NTSB should consider 
extending the ICAO procedures to Safety Board domestic investigations?
    Answer. I understand that all parties to Board investigations are 
encouraged to provide the Board with a submission outlining their views 
regarding the investigation and determination of probable cause. This 
information is provided to all Board Members and is made part of the 
public docket. It seems this process provides the opportunity for ample 
input from the parties, while leaving the analytical process in the 
hands of the Board investigators.
    I am not sure what deficiencies in the existing system this 
proposal is intended to correct, and I would want to understand what 
those are. The Rand report suggested a number of significant changes to 
the process including an option for Board members to request a 
technical peer review of final accident reports and safety studies. I 
could commit to considering the suggestion for appending party comments 
along with the other recommendations of the Rand Study.
    Question 9. What, in your own words, are the two most serious 
safety problems in the aviation industry, railroad industry, maritime 
industry, pipeline industry, and the commercial motor carrier industry?
    Answer. Aviation--Runway incursions are on the NTSB most wanted 
list and have been since 1990. Runway incursions are increasing and, 
without change, will continue to increase with the growing traffic. 
Another critical aviation issue is explosive fuel-air mixtures in fuel 
tanks. The Board had made several recommendations since the TWA 800 
accident.
    Railroad--Collisions at crossings between vehicles and trains are 
the most serious safety threat in this area, followed by collisions 
between trains. The attention to separating or closing crossings must 
be continued, as should the work on electronic systems to provide 
positive separation of trains.
    Pipeline--The most serious threat comes from damaged or corroded 
pipelines so I believe work must be done to monitor and insure the 
integrity of pipelines. There is danger also to pipelines during 
excavations near pipelines, so attention should be directed to training 
and updated procedures.
    Maritime--Judging from the accidents in the past three years, 
cruise ship safety is a major concern. Immediate attention is needed to 
adequate fire detection and warning devices. The failure of boaters to 
equip themselves with personal flotation devices is another serious 
safety issue in this area.
    Commercial Motor Carrier--Fatigue is a problem in all modes of 
transportation but it seems to me to be particularly acute for truck 
drivers. State requirements for and oversight of truck operators is 
another issue that should be reviewed. I understand the Board held a 
special hearing on this subject and expects a report soon.
    Question 10. Do you believe that the FAA and DOT have been 
proactive in the effort to improve aviation safety? If not, what can 
they both do to prevent accidents and incidents before they happen?
    Answer. I think the FAA and DOT generally have responded well to 
Board recommendations. One could wish the agencies had moved faster in 
some areas, such as runway incursions, but I believe the high rate of 
acceptance of Board recommendations indicates that the DOT and FAA are 
intent on improving aviation safety.
    Question 11. What is the proper relationship between the NTSB and 
the aviation industry and should there be more cooperation between the 
NTSB and the industry when investigating accidents, or less?
    Answer. The NTSB has the statutory responsibility for investigating 
the accident. I am sure this is more easily accomplished when there is 
cooperation between parties. Indeed I am aware of a number of recent 
collaborative efforts between the industry and the Board--for example 
in the areas of press guidance and recovery of victim remains. I 
believe cooperation is to be encouraged; however the NTSB is in charge 
and must retain control. Inevitably there will be times when there is 
friction between parties with a vested interest in the outcome and the 
Board, but the Board must manage this friction and steer the 
investigation to a successful outcome.
    (a) Further, what is your view of the NTSB party system 
investigation process?
    Answer. I have not participated in an accident investigation so my 
views at this stage are based on observations from the outside. The 
party system seems to be eminently reasonable. First it allows the NTSB 
to leverage its scarce resources. Second it makes available those 
people with expertise in the subject under investigation. Third it 
minimizes what the Rand study called the ``insular'' character of the 
NTSB.
    (b) Given your current involvement with the Air Transport 
Association (ATA), what steps will you take to maintain your 
objectivity in accident investigations involving ATA members?
    Answer. I have consulted regularly with the ethics officers at the 
NTSB since my nomination, and they have found no conflict of interest. 
If confirmed. I will terminate my relationship as a consultant, and 
will continue to consult with ethics officials in the future and will 
be guided by their advice.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                             John J. Goglia
    Question 1. During your service as a Board member, you have 
witnessed significant changes throughout the transportation industry.
    (a) What has been the single most important safety recommendation 
issued by the Board and implemented by the recommendation recipient in 
the years you have served at the Board?
    Answer. I do not believe I can name just one recommendation, but I 
believe the recommendations aimed at the safe transportation of our 
young people would be among the most important. Since 1996, the Safety 
Board has issued over 60 safety recommendations to improve child 
passenger safety. These recommendations focused on the dangers of air 
bags to children, the importance of putting children in the back seats 
of vehicles, the need for fitting stations to ensure that child safety 
seats are properly installed, and increasing proper restraint use for 
children between the ages of 4 and 8 years old. I believe the Board can 
be proud of its work in these areas. For example, within six months of 
the issuance of the safety recommendation regarding fitting stations, 
Daimler Chrysler announced that it would make its child safety seat 
fitting stations available to every family in America. In addition, 
General Motors and the National SAFE Kids Campaign have partnered to 
educate parents about the need to buckle up children by establishing a 
mobile fitting station program and conducting hundreds of periodic 
child safety seat inspections. These programs will save hundreds of 
lives and prevent many injuries.
    (b) What do you believe to be the most serious transportation risk 
facing the traveling public?
    Answer. It is impossible to point to just one transportation risk. 
However, I believe human fatigue is one of the most widespread safety 
issues in the transportation industry. Alertness is key to safe vehicle 
operation, whether it be an automobile, a train, a marine vessel or an 
aircraft. Human fatigue has a substantial impact on operators, 
dispatchers, controllers, mechanics and all others in safety sensitive 
positions.
    (c) What do you think has been the most significant safety 
contribution you have made in your five-year tenure?
    Answer. As mentioned above, I believe fatigue is one of the most 
widespread safety issues in the transportation industry. My main 
contribution as a Board Member has been to highlight and focus 
attention on the issue of human factors, including fatigue, in all 
modes of transportation. I have conducted and participated in 
workshops, helped develop recommendations, and spoken to various groups 
throughout the transportation industry in order to raise awareness of 
this issue.
    Question 2. Secretary Rodney Slater announced several years ago 
that ``Safety'' is the Department of Transportation's North Star.
    (a) Given your experience at the NTSB, what has been the single 
most important initiative undertaken at the Department of 
Transportation to reduce transportation fatalities? Please list an 
improvement for each transportation mode.
    Answer. The fact that the DOT modal agencies have an average of 
over an 80% acceptance rate of Safety Board recommendations is one of 
the most significant indications of the work the DOT is doing to reduce 
transportation related fatalities in all modes.
    Since I became a Board Member in 1995, the FRA has closed 20% of 
the grade crossings in the U.S. Although, I would like to see more work 
being done in this area, it is a step in the direction of saving lives. 
The FRA has also begun to apply modern science techniques developed by 
NASA to address the issue of fatigue throughout the railroad industry.
    Since Administrator Garvey took over at the FAA, there have been 
renewed efforts to improving aviation safety by working together with 
the Safety Board on many on-going initiatives. This is evidenced by the 
new flight data recorder requirements and the commitment to enforce 
hours of service regulations. Since 1990, the Safety Board has listed 
runway incursions on its ``Most Wanted'' list. Although the FAA has 
been working on this issue, there is still much to be accomplished 
before runway incursions can be removed from the ``Most Wanted'' and I 
believe this effort is one of the most important recommendations made 
to the FAA that would save lives.
    In the area of highway transportation safety, the NTSB is involved 
with the DOT ``Partners in Progress'' initiative which is aimed at 
reducing the number of alcohol-related fatalities from 16,000 per year 
to 11,000 per year by 2005. In conjunction with the automobile 
industry, the DOT has made significant advancements in the area of 
child safety restraints.
    Since taking office a year ago, Administrator Kelly Coyner has 
renewed the commitment to improving pipeline safety in this country. 
Excavation damage is the leading cause of pipeline accidents, and 
actions to prevent those type of accidents are on the Safety Board's 
``Most Wanted'' list of safety improvements. The Research and Special 
Programs Administration (RSPA) has done considerable work on this 
safety issue over the past two years. In fact, last June, RSPA and the 
NTSB sponsored a symposium on excavation damage prevention. I believe 
that there are several areas in which RSPA does need to make 
significant improvements: (1) Pipeline operator qualification and 
training requirements to ensure that those persons operating pipeline 
systems are properly qualified, and (2) to require strong inspection 
and testing requirements for pipelines to identify defects and damage 
before they grow to critical size and fail catastrophically.
    In the area of marine safety, the Coast Guard has initiated a new 
program to improve port safety. The risk assessment and management 
program is a response in part to recommendations the Safety Board made 
on this issue following a high profile marine accident in New Orleans 
in 1996.
    As a Member of the Safety Board, I applaud the initiatives and 
efforts undertaken by the DOT to reduce the number of transportation 
fatalities. I believe there is still much to be accomplished, and I 
would hope these efforts result in the implementation of safety 
recommendations in a timely manner.
    Question 3. As a Member of the NTSB, what changes in accident 
investigation and safety recommendation procedures, if any, have you 
recommended? Have those recommendations been implemented and if so, 
what has been the result?
    Answer. The Safety Board's investigation and safety recommendation 
procedures have been in place for many years and have undergone some 
minor revisions from time to time. Since I have been a Board Member, 
these procedures have served the Board and the American public well, 
and I have seen no need for major overhaul of the practices already in 
place.
    Question 4. During your tenure at the Safety Board, have you ever 
found yourself in disagreement with NTSB recommendations? If so, how 
did you deal with those disagreements?
    Answer. When I have had a concern about the language of a safety 
recommendation, I have worked with the staff and other Board Members to 
reach a consensus about the final recommendation issued by the NTSB.
    Question 5. During your tenure at the Safety Board, have you ever 
voted against the adoption of an accident report or safety 
recommendation? If so, list the instances and reasons for your 
disagreement.
    Answer. Since becoming a Member of the Safety Board, I have not 
voted against the adoption of an accident report or safety 
recommendation issued. As discussed above, I have worked with the staff 
and other Board Members to reach a consensus when I have had concerns 
over a Board report or recommendation.
    Question 6. Board Members review the reports drafted by staff on 
accidents and vote on recommendations and the statement of probable 
cause contained in those reports. All votes occur in public meetings. 
After the votes, the staff makes any necessary revisions and the report 
goes to print.
    (a) Subsequent to those votes and discussions, are you aware of any 
involvement by Board Members in the preparation of the final version of 
the written report as adopted by the Board? If so, how is the review 
process handled and what reports were involved?
    Answer. Work products presented to the Board for discussion are 
sometimes changed as a result of the discussion following a Board 
meeting at the request of the Board. In most cases, the Board will 
trust that their requests have been followed and there is no need to 
once again review an item. However, at times extensive changes are 
requested and the Board does ask that the revision once again be 
circulated for Board review. This was most recently done with regard to 
a safety recommendation package regarding the need for video cameras on 
all turbine-powered, non-experimental, non-restricted-category aircraft 
that are not currently required to be equipped with a crashworthy 
flight recorder device.
    Board Members have recently discussed reports in a meeting, and 
because of the extent of the changes have not adopted the report but 
asked that it be recirculated. Examples are the report of a June 27, 
1996, fire on board the Panamanian Passenger Ship Universe Explorer in 
the Lynn Canal near Juneau, Alaska, and a hazardous materials accident 
that occurred June 29, 1998, in Key West, Florida, involving the 
transfer of cargo from a semi-trailer cargo tank to a straight-truck 
cargo tank.
    (b) Are all Board Members given an opportunity to review the 
written report that will be published and are there any public 
opportunities to review the changes made?
    Answer. I do not review the written report before it is forwarded 
to the printer. However, I am sure a request would be honored should 
the Board Member ask to see the product. The substance of any changes 
are discussed at the public meetings, and any changes are reflected in 
the final report.
    Question 7. NTSB accident investigations are recognized as being 
thoroughly objective and comprehensive. A dedicated staff devotes 
substantial effort in the preparation of accident investigation reports 
and the development of safety recommendations. At the same time, the 
public deserves to have the benefit of the NTSB's expertise as quickly 
as possible and consequently the Safety Board has been criticized for 
allowing many of its investigations to run longer than a year.
    (a) What steps have you taken while at the Safety Board to shorten 
the amount of time that elapses from an accident's occurrence to the 
adoption of the Safety Board's report on the accident? (Please specify 
any changes you have initiated by mode of investigation.)
    Answer. It is important to note that accident investigations are 
extremely complex and are becoming even more so. The NTSB has a small 
staff that accomplishes an extraordinary amount of difficult work. I 
believe that it is part of my job as a Board Member to be responsive 
and timely to any issue that is presented or any Board action that is 
needed to further transportation safety.
    (b) Please provide a list of the accidents where you were the Board 
Member on scene, the date of the accident, the date the accident 
investigation report was adopted by the Safety Board, and then printed.
    Answer. Fox River Grove, Illinois; Accident: October 25, 1995; 
Adopted: October 29, 1996; Printed: January 22. 1997.
    Silver Spring, Maryland; Accident: February 16, 1996; Adopted: June 
17, 1997; Printed: October 24, 1997.
    FedEx MD-11 Newark, New Jersey; Accident: July 31, 1997.
    Bourbonnais, Illinois; Accident: March 15, 1999.
    Question 8. Federal agencies are required by law to respond to 
Safety Board recommendations within 90 days. However, there is no 
similar statutory requirement for the NTSB to reply to a Federal agency 
response.
    (a) Once the Safety Board receives a response to a safety 
recommendation from a Federal agency, how long does it take for the 
NTSB to follow up in writing to an agency concerning the recommendation 
response?
    Answer. The Office of Safety Recommendations is providing the 
response time it takes for the NTSB to follow up in writing to another 
agency. I will forward this information to the Committee as soon as it 
becomes available to me. I should note that I am aware that the NTSB 
often exceeds the 90-day response time required of other agencies. I do 
not think the Safety Board's lengthy response time is acceptable.
    (b) Do you believe the NTSB should devote more time to following up 
on the recommendations it issued and if so, what can be done to improve 
the NTSB response rate?
    Answer. Safety recommendations are the primary tool used by the 
Board to motivate implementation of safety improvements, prevent future 
accidents, reduce injuries and save lives. Unfortunately, the Safety 
Board does take an excessive amount of time to respond to a safety 
recommendation response. Chairman Jim Hall has taken steps to put more 
emphasis on the development and follow-up of the Board's 
recommendations and restructured some of the Board's resources to 
aggressively pursue all of our recommendations. As part of that effort, 
the agency's recommendation function was centralized by moving five 
specialists to the Office of Safety Recommendations and 
Accomplishments. These individuals no longer have collateral duties, 
but focus full-time on recommendation development and implementation. 
Although there are still improvements that can be made, I believe these 
steps will enable the Board to respond and follow-up on safety 
recommendations in a more timely manner.
    Question 9. Aviation accident statistics show that general aviation 
fatalities continue to outpace commercial aviation fatalities.
    (a) In your opinion, what accounts for this continuing phenomenon?
    Answer. Human error is the cause of the majority of aviation 
accidents, whether they be general aviation or scheduled air carriers. 
The general aviation accident rate has been decreasing since 1992, and 
I believe this is due to the proactive efforts of the general aviation 
community, the FAA, and the NTSB to better train and inform pilots.
    (b) What safety programs currently underway or in the planning 
stages offer potential for reducing general aviation accidents 
fatalities?
    Answer. We need to continue to provide easy access to accident and 
safety recommendation information. Aviation briefings, meetings, and 
forum can provide excellent information, and in late fiscal year 2000, 
the Safety Board plans to hold a public forum on general aviation 
issues. I would hope that this forum would be well attended by general 
aviation pilots.
    Question 10. Under the International Civil Aviation Organization 
(ICAO) accident investigation rules, all nations who are parties to an 
investigation are provided a draft copy of the accident report for 
comment. Any substantive comments made which are not agreed to by 
investigating agency are appended to the final report of the accident 
report. The NTSB followed a similar procedure in the ATR Roselawn 
investigation.
    (a) Do you believe the NTSB should consider extending the ICAO 
procedures to Safety Board domestic investigations?
    Answer. ICAO rules do require that a draft copy of the analysis 
portion of the report be provided to the participating States, however 
the rules do not require the sharing of the analysis to the parties for 
comment. The parties to a NTSB domestic investigation do have an 
opportunity to contribute to the analysis phase of the report 
preparation through their party submissions which are forwarded to the 
Board Members and included as an addendum to the final report. The Rand 
report recently considered whether the role of the parties should be 
expanded to allow them to review and comment on the analysis section. 
In it's report released in the fall of last year, Rand found that party 
participation in the analysis phase, beyond written submissions would 
only ``amplify concerns over potential or perceived conflicts of 
interest inherent in the party process.'' I believe that the process 
the Safety Board currently has in place is appropriate and necessary to 
maintaining our independent review of transportation accidents. I 
should also note that, it is my belief that extending ICAO procedures 
to the Board's processing of reports would most likely further the 
delay in the issuance of a final report.
    (b) Aside from public speaking engagements and testimony, what 
initiatives have you advanced during your ensure to broaden public 
participation in NTSB safety programs?
    Answer. Public speaking engagements are my primary method of 
increasing public awareness and appreciation of NTSB safety programs. 
In addition, I have also lead workshops, participated in interactive 
programs with various universities, and met with numerous educators, 
industry representatives, and government officials to further this 
objective. Because the Safety Board has no regulatory authority, it is 
important to participate in such activities to inform others of the 
Safety Board's work and add credibility to our actions.
    Question 11. During your tenure at the Board, what do you consider 
your greatest contribution to promoting national transportation safety 
policy?
    Answer. I believe I have made many significant contributions to 
transportation safety since I became a Board Member 1995. One the 
contributions I find most significant is bringing an operation and 
maintenance perspective to the Board. Because of my background, I 
believe that I have heightened the awareness and importance of the role 
maintenance plays in all modes of transportation. Significantly, 
maintenance involvement in aviation accidents has increased 
dramatically the past five years. Some of the other significant 
contributions I have made include driving the recommendations made 
concerning bird strikes, bringing attention to the disparity in airport 
rescue and firefighting, and focusing attention on human factors.
    Question 12. The NTSB currently has an agreement, in the form of a 
Memorandum of Understanding (MOU), with the U.S. Coast Guard regarding 
the conduct of maritime accident investigations. Please explain your 
own views on the current MOU and any changes you believe are needed to 
insure that maritime accidents receive complete and impartial 
investigation.
    Answer. My understanding of the current MOU the Safety Board has 
with the Coast Guard is that the Safety Board lacks the ability to 
adequately and independently review and investigate the actions of the 
parties to a marine investigation. Currently, the Safety Board must 
negotiate with the Coast Guard in order to be allowed to follow 
established NTSB rules and procedures for accident investigations. I 
support the Board's position to request changes that provide for a more 
direct and independent role for the Safety Board in marine accident 
investigations in order to maintain public confidence and safety. I 
understand that Chairman Jim Hall and senior staff are currently in 
negotiations with the Coast Guard that would lead to an MOU that would 
permit the Board to conduct any investigation it believes appropriate 
to improve maritime safety.

                                <greek-d>

</pre></body></html>
